<html>
<title> - THE ROLE OF EARLY DETECTION AND COMPLEMENTARY AND ALTERNATIVE MEDICINE IN WOMEN'S CANCERS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



THE ROLE OF EARLY DETECTION AND COMPLEMENTARY AND ALTERNATIVE MEDICINE 
                           IN WOMEN'S CANCERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 1999

                               __________

                           Serial No. 106-61

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
61-437                     WASHINGTON : 2000


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 1999....................................     1
Statement of:
    Gordon, James, M.D., Center for Mind Body Medicine, 
      Washington, DC; Susan Silver, George Washington University 
      Integrative Medical Center; Daniel Beilin, OMD, LAC, Aptos, 
      CA; Edward Trimble, M.D., Head, Surgery Section, Division 
      of Cancer Treatment and Diagnosis, National Cancer 
      Institute; and Jeffrey White, Director, Office of 
      Complementary and Alternative Medicine, National Cancer 
      Institute..................................................   124
    Mack, Priscilla, executive co-chair of the National Race for 
      the Cure; and Michio Kushi, the Kushi Institute, Brookline, 
      MA.........................................................    39
    Zarycki, Carol, New York; N. Lee Gardener, Ph.D., Raleigh, 
      NC; and Linda Bedell-Logan, Saco, ME.......................    88
Letters, statements, etc., submitted for the record by:
    Bedell-Logan, Linda, Saco, ME, prepared statement of.........   106
    Beilin, Daniel, OMD, LAC, Aptos, CA, prepared statement of...   139
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     6
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    29
    Gardener, N. Lee, Ph.D., Raleigh, NC, prepared statement of..    98
    Kushi, Michio, the Kushi Institute, Brookline, MA, prepared 
      statement of...............................................    47
    Mack, Priscilla, executive co-chair of the National Race for 
      the Cure, prepared statement of............................    41
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    25
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................    13
    Silver, Susan, George Washington University Integrative 
      Medical Center, prepared statement of......................   131
    Slaughter, Hon. Louise, a Representative in Congress from the 
      State of New York, prepared statement of...................    36
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    32
    Trimble, Edward, M.D., Head, Surgery Section, Division of 
      Cancer Treatment and Diagnosis, National Cancer Institute, 
      prepared statement of......................................   146
    Zarycki, Carol, New York, prepared statement of..............    91

 
THE ROLE OF EARLY DETECTION AND COMPLEMENTARY AND ALTERNATIVE MEDICINE 
                           IN WOMEN'S CANCERS

                              ----------                              


                        THURSDAY, JUNE 10, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:37 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton, 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Horn, 
Mica, Biggert, Ose, Chenoweth, Waxman, Mink, Norton, Cummings, 
Kucinich, Schakowsky, and Sanders.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; Barbara Comstock, chief counsel; 
David Kass, deputy counsel and parliamentarian; S. Elizabeth 
Clay, professional staff member; Mark Corallo, director of 
communications; Carla J. Martin, chief clerk; Lisa Smith-
Arafune, deputy chief clerk; Laurel Grover, staff assistant; 
Nicole Petrocino, legislative aide; Phil Schiliro, minority 
staff director; Phil Barnett, minority chief counsel; Sarah 
Despres, minority counsel; Ellen Rayner, minority chief clerk; 
Jean Gosa, minority staff assistant; and Andrew Su, minority 
research assistant.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record. Without 
objection, so ordered.
    We will have other Members--I see some of them coming in 
right now--joining us, so they will be coming in just a few 
moments.
    We are here today to talk about a subject that has probably 
touched every family in America, cancer. Specifically, today we 
are going to talk about women's cancers. At hearings in the 
future, we will be talking about some of the major concerns 
that men have, prostate cancer. I have talked to Michael 
Milken's staff. We are going to be talking to Senator Dole's 
staff. We will be talking to the minority also about people 
that they might want to have testify about men's problems, 
prostate cancer and other issues, as well as diets that might 
assist men in fighting this dreaded disease as well.
    But today, we are going to be talking about women's 
cancers. In this country, every 64 minutes a woman is diagnosed 
with a reproductive tract cancer. One in eight women today will 
get breast cancer, one in eight. It is an absolute epidemic. 
Some people believe that that figure will grow to as many as 
one in three or four.
    This is turning out to be a very busy week in Washington 
for cancer issues. Last Sunday, over 60,000 people participated 
in the National Race for the Cure, sponsored by the Susan B. 
Komen Breast Cancer Foundation. This foundation has done a 
phenomenal job raising awareness of breast cancer and raising 
money for research and treatment. I applaud their work, and my 
colleagues do as well.
    Today the Government Reform Committee will receive 
testimony from researchers, health care providers, and patients 
on the role of early detection and complementary and 
alternative health practices in women's cancers. This coming 
weekend, the Center for Mind, Body, Medicine, and the 
University of Texas, Houston Medical School, in cooperation 
with the National Cancer Institute and the National Center for 
Complementary and Alternative Medicine is conducting the second 
annual comprehensive cancer conference. They will bring 
together researchers, practitioners, and patients, to discuss 
research advances and patient needs in both conventional and 
alternative medicine.
    This week, this same week, 1,355 women in America will lose 
their lives to one of these cancers. Overall, more than 10,000 
men, women, and children, will die from cancer in America this 
week, 10,000. We say to their families and loved ones, we in 
Congress recognize that the war on cancer declared by President 
Richard Nixon in 1971 is far from over. We cannot, after 28 
years and tens of billions of dollars in research declare 
victory, because we are not yet close.
    My wife suffered from breast cancer several years ago. 
Thankfully, she is a 5-year survivor. Last year, I lost my 
mother and my step-father to lung cancer. So I know, as well as 
many of my colleagues, what families go through when loved ones 
have to fight cancer. Every additional year a patient lives is 
a victory. Every new treatment, drug, or surgical technique is 
a potential victory. However, we have not won this war on 
cancer. But we will not give up.
    The committee has been working to break through barriers of 
institutional bias to get more research done in complementary 
and alternative therapies for cancer, and to improve the 
information available to the public from the Federal Government 
on treatment options. We cannot abide by institutional biases 
within the Government that says something is not acceptable 
because it is alternative or unconventional. We must ensure 
that there is a balance between genetics, drug development, 
natural product development, and alternative therapy research 
within the National Cancer Institute.
    To combat this bias, I am introducing the ``Inclusion of 
Alternative Approaches in Cancer Research Act.'' This bill, my 
bill, would ensure that every advisory group of the National 
Cancer Institute would have at least one member who is an 
expert in complementary and alternative medicine. One leading 
drug treatment for breast cancer and ovarian cancer, Taxol, was 
originally derived from the yew tree and was developed through 
the natural products program. It is important to continue to 
look to nature for other opportunities for drug development. It 
would be a shame if reductions in funding for the natural 
product drug program resulted in missing the next Taxol that 
might save lives.
    I have previously mentioned that less than 1 percent of the 
National Cancer Institute's $2.7 billion annual budget goes to 
research in complementary and alternative medicine. That is 
very disappointing. Unfortunately, the director of that 
institute does not see the need to change that ratio, and told 
me in December that he has no plans to extend that, even though 
half of America's cancer patients will include a complementary 
or alternative treatment in their plan to fight cancer. I 
believe that since we are giving them $2.7 billion, 1 percent 
is not enough. We will do everything in our power to make sure 
that more of those funds are given to alternative and 
complementary research.
    Taxol, Tamoxifen, and other drugs are important tools in 
the fight against cancer, so are pap smears and mammograms, and 
so is an integrated treatment plan. We have been pleased with 
the assistance we have received from several of the 
professional medical associations involved in these areas, 
including the Society for Gynecological Oncology, and the 
American Society of Clinical Pathologists.
    Dr. Edward Trimble will present information on the National 
Cancer Institute's research in early detection and the 
integration of complementary and alternative health practices 
in women's cancers. Cancer is a disease, but its victims are 
heros and heroines. They are people, real people with families, 
jobs, and communities. They make a difference in our lives. 
People like Sally McClain, from Indianapolis, IN, who lost her 
life to breast cancer that metastasized to her spine. Sally was 
a friend of Claudia Keller on my staff. She also was the 
daughter of a man who taught me in high school, who was a good 
friend of mine. It is a shame that one so young should die so 
young because of a disease like this. But Sally didn't give up 
the fight, not one single day. Or Lynn Lloyd, a high school 
English teacher in Montgomery County, MD. After two bouts with 
breast cancer, she is now hospitalized with cancer in her brain 
and her lungs. Even when she was receiving chemotherapy last 
year, she scheduled it around her classes so she could keep 
teaching and stay involved with her students. Now that's real 
dedication. Most of her students didn't even realize that she 
was battling cancer until her most recent hospitalization.
    We are honored today to have another one of those heroines 
with us, a lady that's a very, very good friend of mine. Her 
husband and I were elected to Congress together back in 1982. 
We are going to miss Senator Mack in the U.S. Senate. His 
lovely wife, Ms. Priscilla Mack, is the executive co-chair of 
the National Race for the Cure. As a breast cancer survivor, 
she knows from personal experience the importance of early 
detection. She has worked hard to raise awareness about women's 
cancer issues. With the energy that Ms. Mack brings to this 
fight, we will hopefully begin winning more of these battles, 
saving more lives, getting research funded that will get the 
answers about prevention, early diagnosis, treatment, and 
hopefully one day very soon, a cure.
    Biomedical research already knows that there is not a magic 
bullet cure for cancer. What we do know at this time is that 
the earlier cancer is diagnosed, the greater the chances of 
long-term survival. That is why pap smears are such an 
effective tool in saving lives. We do know from good research 
and practice, that when someone develops a holistic cancer 
treatment plan, including attention to mind, body, and spirit, 
then recovery is more likely, with better quality of life and 
extended life as well.
    Dr. James Gordon, director of the Center for Mind Body 
Medicine here in Washington, and an internationally recognized 
leader in the field of complementary medicine and alternative 
medicine, will be testifying also about advances in 
complementary and alternative medicine cancer research.
    When Jane Seymour, a very prominent movie star, testified 
before our committee in February, she shared the story of 
several of her friends who had gone the conventional route of 
cancer treatment and then been told by their doctors that they 
had done everything they could and it was in essence hopeless. 
They were basically told to go home and die. These women did 
not accept that death sentence. They sought other healthcare 
professionals and advice from friends and family on other 
approaches to treating cancer. They learned, as many others 
have, that in order to survive the conventional treatments for 
cancer, radiation and chemotherapy, that a body needs to be 
strengthened through good nutrition. I am delighted that Michio 
Kushi is here today to talk to us about the macrobiotic diet, 
and that the importance of nutrition is essential in cancer 
patients. Mr. Kushi is recognized throughout the world as the 
foremost authority in this field. The Smithsonian Institute has 
just opened the Michio Kushi family collection on the history 
of macrobiotics and alternative and complementary health 
practices at the National Museum of American History.
    We'll also be hearing from Susan Silver of the new Center 
for Integrative Medicine at George Washington University. This 
center has developed a program for women in cancer treatment 
with an integrative approach.
    Dr. Daniel Beilin is here today to update us on a new tool 
in the arsenal of early detection, regulation thermography. 
This low cost test can be used as a complement to mammography 
for early detection of changes in breast tissue. It has been 
used in Germany, I believe, for about 10 years extensively. It 
is also proving to be a valuable tool in detecting other 
cancers like ovarian cancer and prostate cancer. We are looking 
into advances in research in prostate cancer, as I said 
earlier, and we plan to have a hearing early this fall.
    We expanded this investigation to cover all women's cancers 
because there is so much that needs to be done in breast cancer 
and other areas as well. For example, there is no reliable 
early detection test for ovarian cancer; 75 percent of ovarian 
cancers are not detected until the late stage, three or four, 
and there is only a 25 percent survival rate of more than 5 
years. However, of those that are discovered in early stages, 
there is a 95 percent survival rate of more than 5 years.
    The symptoms of ovarian cancer are vague. They are 
bloating, sudden weight gain, gas, pressure, and lethargy. 
There is research to indicate that eating lots of meat and 
animal fats may increase a woman's risk of ovarian cancer. We 
need more good research in these areas to find solutions. The 
members of this committee on both sides of the aisle are very 
involved in these areas, including Congresswoman Mink, who 
introduced H.R. 961, the Ovarian Cancer Research and 
Information Amendments of 1999.
    Linda Bedell-Logan's sister died from cancer. During her 
battle, Linda's sister, like many cancer patients, suffered 
with lymphedema. Linda, who was involved in healthcare, 
researched her sister's treatment options and learned about 
combined decongestive therapy. As a result of this experience, 
she has helped many cancer patients gain access to this 
treatment by getting their insurance companies to cover the 
costs. Lymphedema is a serious complication for many cancer 
survivors. It causes swelling, usually in an arm or leg. It can 
be very painful, and it reduces a cancer survivor's quality of 
life.
    We are also going to hear from two cancer survivors. Their 
stories show the struggles that women face with cancer and how 
they go through them, the need to develop an individualized 
treatment plan to find reliable information on all treatment 
options, and to be comfortable with the treatment choices they 
make. Lee Gardener and Carol Zarycki are two more cancer 
heroines. I hope I pronounced your names correctly. If I 
didn't, correct me when you come forward. Even though they have 
faced the most daunting enemy you can imagine, they have 
recovered, returned to living and to helping others face 
cancer.
    The hearing record will remain open until July 25th for all 
those who wish to make written submissions on the record.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.001
    
    [GRAPHIC] [TIFF OMITTED] T1437.002
    
    [GRAPHIC] [TIFF OMITTED] T1437.003
    
    [GRAPHIC] [TIFF OMITTED] T1437.004
    
    Mr. Burton. I now recognize my friend Mr. Waxman, for his 
opening statement.
    Mr. Waxman. Thank you very much, Mr. Chairman. I am pleased 
that we are having this hearing on such an important issue. 
Breast cancer is the second leading cause of cancer death among 
women. Cervical cancer will kill close to 5,000 women this 
year. At least another 20,000 women will die this year from 
uterine and ovarian cancers.
    The real issues before us are how can we safely and 
effectively prevent, detect, and treat cancer, and how can we 
make sure that all women have access to good treatments and to 
accurate information about their treatment choices? Proper 
screening techniques can and have lowered mortality rates for 
breast and cervical cancer. We must continue to work hard to 
ensure that women have access to the screening techniques 
currently available, and we must continue to educate women 
about the importance of being screened for these cancers. But 
this is not enough. We also have to make sure that healthcare 
providers follow up with women, notify them of their test 
results, and encourage them to return for further tests if 
necessary. We also have to make sure that quality treatments 
are available to all women.
    At the same time, we need to continue to research better 
ways to detect cancers. Currently there is no good test for 
ovarian cancer, the fifth leading cause of cancer death among 
women in the United States. While mammography has been proven 
to reduce the number of breast cancer deaths in women over 50 
years old by at least 30 percent, it has not been as effective 
in reducing cancer deaths among younger women. We need to 
continue to research screening techniques.
    We should also be looking at ways to prevent cancer. In 
1993, I sponsored legislation that mandated a study of why 
certain localities were experiencing elevated incidence of 
breast cancer and elevated mortality rates. Studies such as 
these are important tools in understanding why women get 
cancers and how to prevent it. We need to know whether the 
causes are environmental, genetic, dietary, and any other 
plausible theory. We need to understand what is going on, and 
why some localities, for no reason that we can otherwise 
understand, seem to produce an extraordinarily high number of 
breast cancers.
    We must concentrate our efforts on developing safe and 
effective ways to prevent cancer, to detect cancer, and to cure 
cancer. We need to make sure that these therapies are available 
to all women. We have an extraordinarily high rate of Americans 
who lack insurance; 42 million was the last figure of uninsured 
people in this country. No one is served by battling over the 
relative merits of alternative versus traditional medicine. 
Instead, our goal should be to develop the most safe and 
effective therapies possible, regardless of how they are 
classified.
    Mr. Chairman, I am pleased that we are going to hear from 
so many important witnesses today. I want to apologize in 
advance, because I have a conflict in my schedule. There is a 
markup in another committee, so I won't be here to listen to 
all of the witnesses. But I will have an opportunity to review 
the testimony, and, I look forward to doing that, and to 
working with you and our colleagues to accomplish the goals 
that we all share.
    Mr. Burton. Thank you, Mr. Waxman.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. I don't have a formal 
opening statement, but I want to congratulate you on conducting 
this hearing, and again reminding us of the importance of early 
detection, prevention, and treatment. I again compliment you on 
this, and also reserve some time to introduce one of our 
witnesses. Thank you.
    Mr. Burton. Thank you, Mr. Mica.
    Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman. Mr. 
Chairman, I think you know as well as anybody that this has 
been a very contentious committee over the last couple of 
years. You have heard that, I know.
    Mr. Burton. You're kidding.
    Mr. Sanders. Yes, I know. You and Mr. Waxman know that. It 
is very nice to see us getting away from that type of partisan 
hostility to focus on an issue of enormous concern to every 
man, woman, and child in this country. I thank you very much 
and the staff very much for putting on this hearing.
    The remarks that you have made and Mr. Waxman have made 
cover a lot of what my opening statement was going to be. But I 
just want to say a few additional words. You know, first of 
all, the fact that we are having a hearing on cancer today, 
probably 30 years ago, there would never have been a hearing 
like this because people said well cancer, we don't know why it 
happens. God strikes somebody and that's the way it goes. There 
is no cause for cancer. In fact, we don't even talk about 
cancer. It's such a terrible thing. We use the ``C'' word, but 
we don't even talk about it because there is just nothing that 
can be done about it.
    So as a result of the work of a lot of people, we have come 
a long way. We are now beginning to take a rational look at the 
causes of cancer and how we can effectively treat it. Just 
think, not so many years ago, when you and I were younger, we 
watched on television and we saw physicians telling us the 
particular brand of cigarette they smoked. Remember that? 
Telling us that they liked this brand of cigarette. That was 
physicians advertising cigarettes. Well, we have come a long 
way from that ``conventional'' wisdom of doctors telling us 
about which cigarettes to smoke.
    Twenty or thirty years ago, forty years ago, breast feeding 
was told to women and mothers as to be a terrible thing. You 
certainly don't want to do that. That was physicians. That was 
the norm. That was what doctors were telling mothers.
    I can remember 15 years ago in the city of Burlington, 
talking to one of the leading physicians at our local hospital. 
I said, ``Well what do you think about diet and disease?'' 
``Oh, there's no connection between diet and disease. It 
doesn't matter what you eat.'' Now I think every American 
understands the important connection between diet and disease. 
Every day, we are learning more and more about the relationship 
between indoor air, between pollution in general, between 
stress and disease, the fact that there is not a huge gap 
between mind and body, as you indicated. People who are 
depressed, people who are under stress are more likely to come 
down with a variety of illnesses than other people.
    We have also learned in recent years that some of those 
therapies and treatments that people around the world have been 
practicing for thousands of years are not quite as crazy as 
some of our ``leading specialists'' have told us. It was maybe 
20 years ago--I may be wrong, it was James Reston of the New 
York Times ended up in China, and he was ill. They practiced 
acupuncture on him. Suddenly acupuncture became acceptable in 
the United States, where for years our leading specialists had 
told us what a quacky and ridiculous idea that was.
    My point is that we are learning more and more about causes 
and treatments. I think this hearing is an important part in 
that process. I agree with you that we should be doing a lot 
more in expanding the Office of Alternative Medicine, for 
example. I should tell you that we had Wayne Jonas, who was the 
very capable head of that office in Vermont a couple of years 
ago. Five hundred people came out to a town meeting on 
alternative health in the State of Vermont on a snowy day in 
the central part of the State.
    I am working on legislation, I know many other people are, 
to begin expanding complementary healthcare, making sure that 
Americans have access to that type of care. The other point I 
would make is that one of the very sad aspects of what is going 
on in this country today is even when there are treatments 
available for cancer, we have millions of people who do not 
have health insurance. So I would hope that we will join the 
rest of the industrialized world, and on this issue you and I 
may disagree or we may not, but the time is now that the United 
States should join the rest of the world and have a national 
healthcare system, guaranteeing healthcare to all people. What 
is the sense of having treatments out there if you have 
millions of people who cannot afford that treatment?
    Where we do agree is I think we should expand and broaden 
our knowledge in terms of complementary healthcare. Europe is 
already way ahead of us, maybe less dependency on some powerful 
drugs if there are natural cures out there. Mostly as I think 
you have indicated, let's study what's going on out there. 
Let's learn. Maybe the treatments don't work, fine. But there 
is nothing wrong with exploring all of the options that are out 
there.
    So I really do appreciate your holding this hearing, and 
look forward to working with you.
    [The prepared statement of Hon. Bernard Sanders follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.005
    
    [GRAPHIC] [TIFF OMITTED] T1437.006
    
    [GRAPHIC] [TIFF OMITTED] T1437.007
    
    [GRAPHIC] [TIFF OMITTED] T1437.008
    
    [GRAPHIC] [TIFF OMITTED] T1437.009
    
    Mr. Burton. Thank you very much, Mr. Sanders.
    Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. I want to thank you 
also for holding this important hearing. During my tenure in 
Congress, I have been very actively involved in women's health 
issues, as you know, as a member of the Congressional Caucus on 
Women's Issues, and former chair. I have been working with my 
colleagues very diligently to increase the funding for women's 
health, including breast, ovarian, and cervical cancer 
research. As Chair of the Technology Subcommittee of the 
Science Committee, I have been working to facilitate technology 
transfers between Government agencies and the private sector. 
Efforts such as missiles to mammograms, that project between 
the Public Health Service, the Department of Defense, the 
intelligence community and NASA, are critically important in 
applying new technologies to the fight against breast cancer.
    The Congressional Caucus for Women's Issues has spent a 
great number of years attempting to address the neglect of 
women's health research at the National Institutes of Health, 
which as you know, is in my district. The caucus asked the 
General Accounting Office back in 1989 to investigate the NIH 
policy regarding the inclusion of women in clinical studies. 
Women had been routinely excluded from many studies, such as 
the physicians health study, which studied the effects of 
aspirin on heart disease on 22,000 male physicians. Just this 
week, however, I found it astounding. I read in the Washington 
Post that ``drinking at least two cups of caffeinated coffee a 
day lowers a man's risk of developing gallstones.'' Now more 
than 46,000 men took part in this study that spanned a decade. 
But what about women?
    In 1990, the caucus introduced omnibus legislation, the 
Women's Health Equity Act, which included the establishment of 
the Office of Research on Women's Health, and the requirement 
that women and minorities be included in all the clinical 
trials and protocols wherever appropriate in research studies 
funded by NIH. That has been working. In the fall of 1990, in a 
meeting of caucus members, NIH announced the formation of that 
office and quite frankly, we codified it in Congress, so it is 
a permanent office. Since that time, great progress has been 
made in funding for women's health concerns, particularly 
breast, ovarian, cervical cancer, osteoporosis, and the Women's 
Health Initiative. For example, breast and ovarian cancer 
funding at NCI, the National Cancer Institute, has more than 
quadrupled since 1990.
    Recently, I initiated a letter to the House Subcommittee on 
Defense Appropriations, asking for continued funding for the 
Department of Defense peer-reviewed breast cancer research 
program for fiscal year 2000. You know that we have 223 Members 
of this House who have signed onto that letter.
    However, our job is far from over. Despite great strides in 
women's health research, we still have to be vigilant, have to 
address issues that aren't receiving public attention and 
research priority that they deserve. That is why I think we are 
all open to the suggestions and enhancing alternative medicines 
too.
    More than 14,000 women will die of ovarian cancer this 
year. Early detection is essential in the treatment of ovarian 
cancer. Yet there is no reliable early detection test. We know 
that if diagnosed and treated early, the survival rate for 
ovarian cancer is 95 percent. However, there are no obvious 
signs or symptoms until late in its development, and only about 
25 percent of all cases are detected at the localized stage. 
Congresswoman Mink has been very much involved in that project.
    There are 2.6 million women living with breast cancer in 
the United States today. Each year, approximately 175,000 women 
are diagnosed, 43,300 women will die of breast cancer, which is 
the leading cancer among women. Despite these frightening 
statistics, there are only three methods for detecting breast 
tumors, self examination, a clinical breast exam by a 
physician, and the mammogram.
    I do want to comment that the first panelist is Priscilla 
Mack, as you mentioned. I am just very proud of the fact that 
she is the executive co-chair of the Susan G. Komen Race for 
the Cure. I have a picture of Priscilla that was taken of my 
running in the race just last Saturday. It was the 10th 
anniversary; 67,000 people ran in that race, bringing in a 
great deal of money which will help with all the research 
projects. I am sure you will tell us about that.
    As an aside, since we are all affected in some way by 
cancers that affect women, my sister died 23 years ago of 
cancer. At that time, we began raising her six children, I 
think successfully.
    Lung cancer kills more women than breast cancer. Yet there 
has been very little emphasis on lung cancer in general. In 
1998, 23,000 women died of lung cancer. Between 1974 and 1994, 
there was a 147 percent increase in women diagnosed with lung 
cancer. Lung cancer tends to be a silent disease, and there are 
no good early detection programs in place for women or for men.
    So, Mr. Chairman, I applaud you for holding this important 
hearing on the early detection and alternative treatment of 
women's cancers. I look forward to the testimony from the 
experts and from those who have had some experience. Again, I 
applaud you. Thank you. I yield back.
    Mr. Burton. Thank you, Mrs. Morella. I was looking at this 
picture of you in the race. What was your time? [Laughter.]
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. Thank you 
for your continuing leadership in this area and for the 
participation of members on this panel, as well as our guests 
here today.
    Over 500 years ago, people thought the Earth was flat. It 
caused many not to want to go on a voyage that could cause them 
to fall off the corner of the Earth. Today there are still 
people who think that illness and disease is something that's 
outside of us and that we can turn our health over to other 
people who will then tell us how we can be healthy. But through 
the work of people like Michio Kushi, who is one of the 
panelists today, we have learned that we have the ability to 
take responsibility for our own health. What a miracle that is. 
Think about that for a moment. That the conditions which create 
disease may come from things that we do. So if that is in fact 
the truth, how empowering it is that we can have some control 
over the conditions which are internal to our disease and which 
become externalized and can cause us to have a debilitation in 
our quality of life.
    Mr. Kushi, in joining this panel today, brings to it a 
tremendous amount of experience in his work as one of the 
foremost proponents in the world of macrobiotics. As all of the 
students of Greek and of medicine know, macrobiotics comes from 
the word ``macros'' and ``bios'' in Greek, which means a great 
life or long life. That was a term that was coined by 
Hippocrates about 2,500 years ago.
    Today people know macrobiotics in a much more popularized 
way through foods like brown rice and seitan, which is a wheat 
cutlet, whole wheat sourdough bread, vegetable sushi, and rice 
cakes. The standard macrobiotic diet has been practiced widely 
throughout history by all major civilizations and cultures. The 
diet centers on whole cereal grains and their products and 
other plant qualities.
    Over the last 30 years, Michio Kushi has taught throughout 
the United States and abroad, giving lectures and seminars on 
diet, health consciousness, and the peaceful meeting of eastern 
and western philosophies. In 1978, Mr. Kushi and his wife, 
Adaline, founded the Kushi Institute, which is an educational 
organization for the training of future leaders of society, 
including macrobiotic teachers, counselors, and cooks. The 
Kushis in 1986 founded One Peaceful World. It is an 
organization which provides information on macrobiotics and 
helps to guide society toward world health and world peace.
    Now one of the things that I think ought to be called to 
the attention of the Members before we begin hearing from the 
witnesses because many of you are already aware of this, later 
this year, the National Institute of Health is expected to 
issue a long-awaited study on the macrobiotic approach to 
cancer, which is currently being completed by researchers at 
the University of Minnesota and at Harvard University. Another 
report, which is a case control study from Italy, shows that 
macrobiotics can significantly lower the risk of breast cancer. 
That report is awaiting publication.
    The American Cancer Society describes macrobiotics as ``the 
most popular anti-cancer diet'' today. On its Internet site, 
the American Cancer Society states,

    Macrobiotics may help prevent some cancers. It may reduce 
the risk in developing cancers that appear related to higher 
fat intake such as colon cancer and possibly some breast 
cancers. The macrobiotic diet, like other fat free diets, can 
lower blood pressure, and perhaps reduce the chance of heart 
disease. Taking part in a macrobiotics program may provide some 
sense of balance with nature and harmony with the total 
universe, and as such, promote a sense of calmness and reduce 
stress.

    So when we think in terms of health today, perhaps rather 
than thinking in terms of simply winning a war with cancer, we 
can also look toward changing the analogy and talk about 
prevention of cancer, because some see cancer as a lack of 
balance. As we bring our bodies more into their natural 
harmony, as Mr. Kushi I'm sure will be testifying about, we can 
find that conditions of health can be created where some may 
have thought previously it was impossible to do so.
    So this hearing today, through the testimony of the 
witnesses and through the testimony of other experts, such as 
Mr. Kushi, will be an exercise in raising the Nation's 
consciousness over the importance of looking at alternatives to 
healthcare, the importance of finding better ways to treat 
disease, and the importance of giving individuals an 
opportunity to reclaim power in their own lives to improve the 
quality of their lives, and through their courage and example, 
give others hope that they can do the same.
    So, with that, Mr. Chairman, I thank you very much for your 
efforts in calling these hearings. I look forward to the 
testimony of the witnesses. I am awaiting a call to go to the 
floor for the debate on the Kosovo spending bill, so I may not 
be able to be here the whole time, but I appreciate being here 
now.
    Mr. Burton. Thank you, Mr. Kucinich. You have been a big 
help. I appreciate your continued assistance.
    I might just hold up before our next member speaks, that 
these are some of the books that Mr. Kushi has, co-written by 
Mr. Alex Jack. Here's a book also, ``Let Food Be Thy 
Medicine.'' There are a number of books out like this. I am not 
just touting these particular books. I don't get a commission. 
But I think it's really important for anybody who is watching 
on television, who is in the audience, to take a look at some 
of these books because change in diet I think has been proven, 
and will be proven in the future, to be a real help in 
preventing various forms of cancer.
    With that, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. May I, like my 
colleagues, thank you and compliment you on your initiative in 
holding this hearing. As a Chair last year, along with Nancy 
Johnson of the Women's Caucus, I am particularly appreciative 
for this effort.
    The Women's Caucus has perhaps devoted more of its time to 
cancer, and especially breast cancer but other forms as well, 
including ovarian cancer, than it has to any other women's 
issue. Last year, when Tamoxifen was announced as a drug that 
had proved so effective in treating breast cancer that they 
were stopping the trials and letting it go forward, we held a 
whole hearing on that with the Surgeon General, the FDA, and 
others coming in, including women who had participated in the 
trials.
    The progress in dealing with women's cancers is so 
extraordinarily hopeful today. Just yesterday a major 
controversy resurfaced that arose last year about whether women 
should begin to have mammograms at 40 or 50, where the women in 
Congress took the position that they should begin at 40. Where 
there is some difference among the experts, then for goodness 
sakes, let's err on the side of the expert that may save the 
most lives. Now there is an additional study just announced 
yesterday that affirms 40 as the age that you should start 
mammograms.
    Just today, I believe--again, I'm thinking it was 
yesterday, perhaps reported yesterday--a study again reported 
confusion among women and families about the role of estrogen. 
We are told that estrogen in fact does tend to be a factor in 
some breast cancer, but those are the breast cancers that are 
easiest to combat, and that apparently it is not as much of a 
factor as we thought.
    We all know that the most effective thing that a woman and 
a family can do to prevent breast cancer is early screening, 
and that an early mammogram could not be more important. We had 
come to the point where breast cancer was breaking down along 
income lines and insurance lines. I am very pleased at the way 
in which mammograms, or mammography, has become available to 
low income women and minority women who were being left out, 
and therefore, being subjected to discovery of their cancers 
much later, when they are often not curable.
    The fact is that breast cancer, for example, and ovarian 
cancer are becoming curable diseases based almost entirely on 
early detection. Therefore, the emphasis on prevention in this 
hearing could not be more important. We are learning that 
cancer is many different diseases that act like, or at least a 
disease that acts like many different diseases. I am going to 
say for that reason, cancer is nothing to play around with. 
Prevention and, once the disease sets in, responsible treatment 
is going to be very important. The notion of alternative 
medicine, it seems to me, is critical here. If you believe that 
prevention is the best cure, the developing science on the role 
of fat and diet must be taken very seriously, not only with 
respect to women's cancers, but generally.
    What I would like to leave the hearing with--and I hope to 
be able to stay through most of it, I am going to have to come 
and go because of other hearings--is with what I regard as the 
great need. That is a word that I will take from what the 
chairman said. He used the word ``integration.'' That is to say 
the integration of so-called alternative medicine with 
traditional medicine as is practiced largely in the West. The 
fact is, that the reason that we are able to cure so much 
cancer has to do with the genius of American medicine. Now if 
we look further into alternative medicine, we may find the 
genius that enables us to help prevent cancer. Then we will be 
able to bring the two together in a successful integration.
    I would hate to see the development of polar notions of 
medicine, that there's alternative medicine, and then there's 
the other medicine. That is a tragedy. That is a false 
dichotomy. Moreover, we should not allow different sets of 
standards to develop for testing what is effective. Women have 
a right to know from their government what is effective, 
whether it comes out of nature in some pure sense or whether it 
is manufactured by a pharmaceutical company, and the role of 
government is to make sure that somehow, we can do our best 
work by finding safe, economical ways to integrate so-called 
alternative medicine with more traditional medicine so those 
words disappear and it's all medicine.
    Finally, Mr. Chairman, let me say that with the members of 
the Women's Caucus, I went to the Labor, HHS, Appropriations 
Committee where we go every year. Instead of talking about the 
diseases of women, I proposed a new program which I call LIFE. 
I chose that acronym for lifetime improvement in food and 
exercise, because I am appalled at the way in which, 
particularly the baby-boomers and children, are setting 
themselves up for cancer, diabetes, arthritis, and every deadly 
disease known to man through overweight and obesity. The 
notions of fat and diet are very important, but they are 
important because of the natural ways in which they prevent 
disease.
    I look forward to what our witnesses will have to say about 
not only their experiences, but also about these ways of 
preventing similar experiences. If I could just say on a 
personal note that I particularly am pleased to welcome Mrs. 
Connie Mack, because her husband and I have worked as closely 
together as I have with any Member of the Senate or the House. 
He is not of my party. He has been extraordinary in the way in 
which he has used his problem-solving skills to work with me on 
tax matters. I know any man that is as good as that must have 
an awfully good woman for a wife.
    Thank you, Mr. Chairman.
    Mr. Burton. I am sure that Priscilla guides him in 
everything he does.
    Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman. I, too, want to join my 
colleagues in commending you for calling these hearings on such 
an important matter as the discussion on the needs for early 
detection and discussions of other kinds of preventive measures 
that could be taken with respect to women's health issues.
    Mr. Chairman, for 8 years I have been trying to get the 
Congress to focus on the one issue that I thought was terribly 
neglected, having to do with the research necessary for finding 
some way in which we could detect the presence of ovarian 
cancer early enough to assure that the life of the woman could 
be saved. I discovered in 1991 through efforts by researchers 
at NIH and elsewhere, that only $8 million of the entire NIH 
budget was devoted in any respect to the research needed in 
ovarian cancer. Notwithstanding efforts of hundreds of women on 
this specific issue, we have only risen to a paltry level of 
$40 million. I have legislation, and Mr. Chairman, in which I 
invite your cosponsorship, calling for a budget of $150 
million, which even by itself is modest if we are to really put 
the research efforts that are there to discover a reliable 
early detection test that could save lives.
    It is important to talk about prevention and all the other 
aspects of your hearing today, but it seems to me that with the 
scientific knowledge and the intelligence and training and 
research capabilities of our health researchers throughout the 
country, that we ought to be able to find a reliable test that 
could save thousands of lives of women who are diagnosed today, 
too late to have their lives saved. So many of these women are 
young, just beginning in their life situation. It is something 
which I feel very, very strongly about that has been neglected.
    Mr. Chairman, this is really the first hearing in all these 
years of effort to call attention to this deplorable situation 
and neglect, that we have allowed. I have been to the 
Appropriations Committee, as my colleague here has indicated, 
every year, asking for earmarked money for this research 
effort. The Appropriations Committee has refused to earmark any 
money for ovarian cancer research. They have included report 
language, but never any earmarked money.
    So I urge my colleagues to consider the legislation that is 
before this body, and join me in cosponsoring. I believe it is 
essential, and I believe that we are on the threshold of a 
research breakthrough. What is required is a commitment on the 
part of this Congress to steer our health research industry to 
focus on this very, very pathetic neglect. If we can clone 
sheep and mice and other things with our incredible 
intellectual capability, it seems to me that within a few short 
years, we ought to be able to come up with a reliable
test that could save thousands of lives each year. I implore 
this committee to continue this effort in calling attention to 
this serious health research neglect.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Patsy T. Mink follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.010
    
    [GRAPHIC] [TIFF OMITTED] T1437.011
    
    Mr. Burton. Thank you. I will be happy to cosponsor your 
legislation. I think Dr. Beilin may have some information that 
might be helpful in the research toward these cancers.
    Mrs. Mink. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Are there any other Members that wish to be 
heard? Mr. Ose. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. As I look 
down our list of witnesses, it makes my heart glad to know that 
they are all in this room. They are special people who have 
decided that they want to touch other people's lives and are 
doing so every day. So I thank them for being with us today. I 
look forward to your testimony.
    Mr. Chairman, I am also pleased that this hearing regarding 
detection and treatment of women's cancers has been scheduled 
today. The medical and scientific community has made tremendous 
breakthroughs in the early detection and treatment of women's 
cancers in the past few years. Even with all the options 
currently available for the early detection and treatment, the 
estimates for new incidences of these cancers are unacceptable. 
The National Cervical Cancer Coalition estimates that 2 million 
American women will be diagnosed with breast or cervical cancer 
in the 1990's, and half a million will lose their lives. A 
disproportionate number of deaths will occur among minorities 
and women of low income.
    It is interesting that in my district in Baltimore, sits 
Johns Hopkins Hospital. Johns Hopkins does a tremendous job of 
outreach, but at the same time, I know many women who are dying 
of these cancers every year. Virtually all of these deaths can 
be prevented by making life saving screening services available 
to all women at risk. Common barriers to early detection 
screening include, and this is very interesting, women 
attempting to escape knowledge that they have cancer, 
prohibitive costs and unawareness of the availability of low 
cost programs, lack of access to transportation to screening 
locations, communication barriers, lack of physician referrals, 
and lack of childcare.
    The Breast and Cervical Cancer Mortality Prevention Act of 
1990 authorized the Center for Disease Control to implement a 
national cancer screening program. Through September 1996, the 
CDC has provided more than 1.2 million screening tests to low 
income, uninsured, or under-insured minority women.
    Alternative and complementary approaches to treating these 
cancers have also gained momentum. In 1998, the National Center 
for Complementary and Alternative Medicine was established 
within the National Institutes of Health. This has effectively 
engaged traditional biomedical research in the evaluation of 
alternative medical treatment using scientific models. However, 
until more is known about the many alternative and 
complementary treatments, conventional treatment methods hold 
the most promise. We hope for a cure in the near future. In the 
absence of a cure, the ability to implement a national program 
to detect and treat women's cancers depends in large part on 
the involvement of various partners in State and local 
governments, physicians, national and private sector 
organizations, and consumers.
    In the spirit of greater understanding and education of 
varied treatments of this disease, I look forward to hearing 
the experiences and opinions of today's witnesses. Thank you.
    [The prepared statements of Hon. Elijah E. Cummings, Hon. 
Edolphus Towns, and Hon. Louise Slaughter follow:]

[GRAPHIC] [TIFF OMITTED] T1437.012

[GRAPHIC] [TIFF OMITTED] T1437.013

[GRAPHIC] [TIFF OMITTED] T1437.014

[GRAPHIC] [TIFF OMITTED] T1437.015

[GRAPHIC] [TIFF OMITTED] T1437.016

[GRAPHIC] [TIFF OMITTED] T1437.017

[GRAPHIC] [TIFF OMITTED] T1437.018

[GRAPHIC] [TIFF OMITTED] T1437.019

[GRAPHIC] [TIFF OMITTED] T1437.020

    Mr. Burton. Thank you, Mr. Cummings.
    We have two votes on the floor. We should be back here in 
about 15 minutes. I apologize to the people who will be giving 
testimony, but we will get right to you, just as soon as we get 
back. So please excuse us. We stand in recess to the call of 
the gavel, about 15 minutes.
    [Recess.]
    Mr. Burton. The committee will come to order.
    Sorry for the delay. We had some votes on the floor of the 
House. I am sure Members will be coming back in here as they 
leave the floor.
    I would like for our first series of witnesses, Ms. Mack 
and Mr. Kushi, to come forward please and take their seats. Ms. 
Mack, you can sit on the left. Mr. Kushi can sit on the right.
    I think I will recognize my colleague from Florida for an 
introduction.
    Mr. Mica. Thank you, Mr. Chairman. I am, indeed, delighted 
to have this opportunity to introduce someone very special to 
me. For the past two decades, I have known the Mack family. I 
had an opportunity to be a friend and also recently to be a 
colleague of Senator Mack. I think that there have been several 
comments already about the Mack family. Certainly Senator Mack 
is a gentleman. We have a gentlelady with us today, his wife. 
Both are very accomplished in their particular areas of 
endeavor.
    The Mack family, like many American families, and we have 
also heard that among our Members of Congress cited today, have 
been afflicted by the rages and ravages of cancer. Their 
family, the Mack family, has been victimized by this disease. 
Mrs. Mack, Priscilla Mack is a cancer survivor. What is great 
about Priscilla Mack is that she took this adversity and this 
disease and she turned it into a personal campaign of public 
awareness, a public education effort to have millions and 
millions of American women become aware of the need for 
prevention, self-examination, and the problems that are related 
to breast cancer.
    So I am, indeed, delighted and privileged to introduce a 
leader in our State and in our Nation. She is really our first 
lady in Florida in the fight against cancer, and really our 
first lady in the Nation who has brought to the public, to the 
American women, the need again for early prevention, detection, 
and treatment.
    So, Mr. Chairman, thank you for this honor and welcome, 
Mrs. Mack.
    Mr. Burton. Thank you, Mrs. Mack. I can recall back when 
Connie and I first got elected in 1908.
    Mrs. Mack. It seems that long.
    Mr. Burton. It was 1982. Connie came over to my condo over 
in Alexandria. We sat on the floor and watched Chariots of 
Fire. You were down in Florida at the time. So Connie and I 
have been good friends for a long time, as well as you. I 
remember watching your boy grow up. So I am really happy you 
are here today.
    Mr. Kushi, we are very happy you are here today. I am going 
to read your book. Hopefully that will save my life for a 
couple of years.
    So we will start off with you, Mrs. Mack.

    STATEMENTS OF PRISCILLA MACK, EXECUTIVE CO-CHAIR OF THE 
    NATIONAL RACE FOR THE CURE; AND MICHIO KUSHI, THE KUSHI 
                    INSTITUTE, BROOKLINE, MA

    Ms. Mack. Mr. Chairman, members of the committee, I would 
like to thank you for the opportunity to appear before the 
Committee on Government Reform, and I commend you for holding 
this important hearing. I am here both as a breast cancer 
survivor, as well as executive co-chairman of the Susan G. 
Komen Breast Cancer Foundation's National Race for the Cure.
    In October 1991, I was diagnosed with breast cancer. Prior 
to the time of my diagnosis, I had followed all the 
recommendations with regard to having annual mammograms and 
clinical breast exams. However, it was through breast self-exam 
that I discovered my lump in my left breast. I underwent a 
modified mastectomy, followed by 6 months of preventative 
chemotherapy, 5 years of Tamoxifen. In May, the following year, 
I completed my reconstructive surgery.
    I also want to note that I had had my mammogram 9 months 
before I found my lump. I had had my clinical exam 3 months 
before I found my lump. Early detection saved my life through 
my breast self-exam. Today I am a breast cancer survivor.
    My goal is to share with as many women as possible the 
lessons I have learned as a breast cancer survivor. The most 
important lesson is a simple one, educate yourself. When 
confined to the breast, the 5-year survival rate is more than 
95 percent. But women have to do three things, and through the 
American Cancer Society, of which I work also in Florida, we 
call it triple touch. You'll see when I mention these three 
things, why triple touch saved my life. One is your breast self 
exams monthly. Two, mammograms, as indicated by your physician. 
Three, your clinical exams. My message to women is simple but 
important. Early detection saved my life, and it can save yours 
too.
    One of my efforts to help in the fight against breast 
cancer is my work on behalf of the Susan G. Komen Breast Cancer 
Foundation's National Race for the Cure. Since its inception 10 
years ago, the race has grown to the world's largest 5K walk/
run. The 10th Anniversary Komen National Race for the Cure took 
place this last Saturday, June 5, with the record number of 
66,148 participants. I also found out that 43,000 crossed the 
finish line. I believe Congresswoman Morella was 1 of those 
43,000.
    We were honored that Vice President Al Gore and Tipper Gore 
served as our honorary chairs for the race. Breast cancer 
survivors took part in a special salute to survivors which 
began with an inspirational walk at the foot of the Washington 
Monument. We also had a large bipartisan contingency of 
Washington lawmakers and more than 2,500 participants from 72 
countries around the world. Most importantly, thousands of my 
breast cancer survivors, wearing pink T-shirts, all 
participated from all across this great land.
    Last year, the Komen National Race for the Cure awarded 
$1.8 million in grants to 24 Washington, DC, area hospitals, 
research centers, breast health organizations, and the national 
grant programs of the Susan G. Komen Breast Cancer Foundation. 
These grants provide funding for breast health programs 
including research, screening, treatment, and education 
programs.
    This year, we are pleased to announce that we will give 
approximately $2.5 million in grants, to be awarded from this 
year's race. Since its inception, the Susan B. Komen Breast 
Cancer Foundation has raised more than $136 million through the 
work of its local affiliates in more than 100 communities 
across the country.
    Once again, let me offer my heartfelt thanks to the many 
Members of the Senate and the House of Representatives who 
participate in the Komen National Race for the Cure series 
throughout the year. With each advance we make in finding a 
cure for breast cancer, we are one step closer to winning the 
race.
    I would like to, before I close, mention to you all how 
cancer has touched our lives personally. Through this all, I 
want you to keep in mind that many of us are alive today 
because of early detection. My husband's mother was a 25-year 
breast cancer survivor. My husband's brother died of melanoma 
at the age of 35. His was not detected early. My daughter is a 
10-year survivor of cervical cancer. Early detection saved her 
life. Because it was detected early, we now have a third 
grandson after the fact. She is in perfect health. My husband 
was diagnosed with melanoma right after he was elected to the 
Senate. Early detection and due to the profound experience we 
had with his brother, early detection saved my husband's life. 
Then I was diagnosed with breast cancer. Early detection saved 
my life. Unfortunately, Connie's mother died of renal cancer. 
Connie's father died of esophageal cancer. My stepmother died 
of ovarian cancer.
    When we say early detection until we find a cure saves 
lives, meaningful things like this hearing and all that the 
doctors and the researchers are doing, I pray to God we'll end 
this dreaded disease.
    Mr. Chairman, I thank you for the opportunity to appear 
before this committee.
    [The prepared statement of Ms. Mack follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.021
    
    [GRAPHIC] [TIFF OMITTED] T1437.022
    
    Mr. Burton. Thank you very much, Priscilla. It is good 
seeing you again. I was not aware of all the tragedies that 
your family had to endure. We have had some ourselves, but, 
that's a lot. So you are to be commended, and Connie is to be 
commended, for all the extra efforts you put forth to help out.
    Mr. Kushi.
    Mr. Kushi. Thank you very much for this opportunity, Mr. 
Chairman and committee members, I very much appreciate the fact 
that conventional medicine has developed its technology with 
the goal of diagnosing and treating various illness. We desire 
the continuous support of the physical and the other approaches 
that conventional medicine offers for the treatment of 
sickness.
    On the other hand, the conventional approach is a 
symptomatic approach, and therefore, does not focus on 
revealing or applying understanding of the cause which 
underlies disease. No. 2, professionals engaged in the practice 
of conventional medicine often lack an understanding and 
support of other healthcare approaches. No. 3, conventional 
treatment, including its methods of diagnosis has always 
produced side effects. This is especially true when treatments 
are over-applied, and often results in the severe suffering of 
those who receive such treatments. Four, conventional methods 
of diagnosis and medical treatment are always expensive and 
often beyond the average person's income. As a result, costs 
often become the responsibility and burden of the government, 
the public, and the insurance systems.
    Based upon these points, the tendency of individuals to 
search out these alternative approaches, so-called alternative 
and complementary health practices, has increased over the past 
many years beginning, commencing from about 40 years ago. 
Currently, approximately 50 percent of those who are suffering 
from disease are searching for and receiving unconventional 
methods of treatment.
    As a demonstration of these trends, consider the example of 
cancers that affect women. One, over the past 40 years, it has 
been my experience, as well as that of my associates, that many 
women are hesitant to receive chemotherapy, radiation, and the 
other intensive treatments. Two, many women who receive 
conventional care seek alternative methods as a result of 
intense suffering, both physical and emotional, that they 
experience by conventional medical treatment. They seek out 
milder approaches. Three, many patients desire to know the 
cause of the cancer from which they are suffering, yet they do 
not receive satisfactory answers.
    The causes of women's cancer, as is true of the majority of 
physical and emotional sicknesses, lie in daily lifestyle and 
dietary practices. For example, in the case of breast cancer, 
the major causes are over-consumption of high-fat foods, 
including dairy food and simple carbohydrates such as refined 
sugar and sweets. In the case of ovarian cancer, the major 
dietary factors are the over-consumption of eggs and poultry, 
as are high fat, high cholesterol animal foods.
    In the case of uterine cancer, dietary causes include over-
consumption of animal foods and heavy dairy fats such as those 
found in cheese. In the case of cervical cancer, similar to 
prostate cancer in men, the primary dietary factors are the 
over-consumption of oily and greasy foods, salty foods, hard 
baked flour products, and heavy animal foods. In the case of 
thyroid cancer, the primary causes are the over-consumption of 
eggs, poultry, dairy fats, and hard baked flour products. In 
the case of pancreatic cancer, consumption of poultry, cheese, 
shellfish, and hard baked flour products are contributing 
factors.
    In the case of skin cancer, causes include over-consumption 
of oily foods, sweets, and dairy fat, high-fat foods. In the 
case of leukemia and lymphoma, dietary causes include over-
consumption of dairy fats, sugar, and sweets, as well as oily 
and greasy foods. Over-consumption of stimulants and aromatic 
substances, such as hot spices, alcoholic beverages, and 
caffeine, accelerate the spread of the cancer condition.
    Other lifestyle factors, such as cigarette smoking, 
physical inactivity, exposure to high levels of electromagnetic 
fields or radiation, and the consumption of chemically treated 
foods and water also contribute to the development of cancers. 
Non-organic chemically cultivated agriculture, irradiation, 
microwave cooking, and similar methods of unnatural food 
production and artificial processing, as well as daily 
unnatural lifestyle, are potential factors as well.
    The macrobiotic approach, which attempts to correct these 
undesirable characteristics of the current American lifestyle 
and dietary behaviors, has been practiced by many individuals 
since the 1960's. Beginning as a grassroots movement, the 
macrobiotic approach has led to the initiation of the natural 
food movement and organic agriculture. The macrobiotic approach 
continues to gain popularity, and currently influences many 
millions of people. As a healthcare practice, this approach has 
helped to prevent disease and speed recovery times associated 
with numerous sicknesses, including many types of women's 
cancers.
    Among those in today's audience, the following six or seven 
ladies are present that have experienced various types of 
cancer and also have recovered through the macrobiotic 
approach: Chris Akbar, a former physicist from Pennsylvania, 
who recovered 14 years ago from inflammatory breast cancer, 
which is predicted to have a lifetime of 2 or 3 months; Marlene 
McKenna, a mother of five, radio/television commentator, and 
investment broker from Rhode Island, who recovered 16 years ago 
from malignant melanoma spread to the small intestines; Judy 
MacKenney, a clothing designer from Florida, who recovered 8 
years ago from non-Hodgkins lymphoma, stage 4; Kathleen Powers, 
Stone Mountain, GA, diagnosed in 1985 with endometrial cancer, 
stage 4, and diagnosed in 1993 with non-Hodgkins lymphoma, 
stage 3, terminal; Debora Wright, Athens, GA, diagnosed in 1995 
with infiltrating ductal cancer, stage 2B; Lynn Mazur, 
Arlington, VA, diagnosed in 1989, Hodgkins lymphoma, stage 4B; 
Lizzz Klein, Tampa, FL, diagnosed in 1985, 30 various kinds of 
symptoms, including brain damage and breast cancer, suspected 
results due to breast implants; Mr. Norman Arnold, a business 
leader and philanthropist from South Carolina, who recovered 17 
years ago from pancreatic cancer spread to the lymph and liver.
    These ladies and gentleman will be available for interview 
later, if you wish. Not only have they survived their 
illnesses, but they have actively contributed to society for 
many years following recovery, without recurrence of cancer. 
The majority of those cases were all terminal. These people are 
only a few examples of many who have recovered from cancer. In 
addition, many hundreds of women and men have received benefits 
from the macrobiotic approach.
    The National Institutes of Health made a small grant of 
about $30,000 to the School of Public Health at the University 
of Minnesota. This fund was applied for the collecting of data 
and gathering of medical records. The data are now under review 
by a research group from Harvard Medical School and oncologists 
from Beth Israel Deaconess Medical Center in Boston.
    In contrast to the conventional approaches, the macrobiotic 
approach also includes--not denying the conventional approach 
also, but also such practices as oriental herb medicine, 
acupuncture, moxibustion, and shiatsu massage, as well as other 
physical body care, emotional meditation, and psychological 
therapy practices, as they are necessary.
    We highly recommend that the Government support the 
following: One, please make available public education 
regarding a proper healthy way of eating, mainly using grain 
and vegetable bases; and more natural lifestyles.
    Two, increase funds available for research regarding the 
effectiveness of alternative and complementary approaches for 
both prevention and recovery, including diet and lifestyle as 
the base.
    Three, make recommendations to all health facilities and 
medical schools to accommodate healthful menus and cooking 
instructions, as well as to teach a proper healthy lifestyle.
    Four, advise selected hospitals or healthcare centers to 
establish a pilot plan for macrobiotic diet or similar diet and 
lifestyle, together with data creation as a clinical trial.
    Five, please advise medical and healthcare professionals of 
simple, practical ways of diagnosis, based upon oriental 
diagnoses of the face, pulse, meridians, and vibration, in 
order to effect low-cost, early detection.
    Six, establish community-based and school-based educational 
programs, including school lunch programs and high school home 
economics classes, to recover home cooking and healthy 
lifestyles.
    Seven, we would be happy to cooperate with such 
governmental efforts or public efforts by dispatching or 
sending well-experienced macrobiotic educators, counselors, and 
cooking instructors to any potential facilities. We recommend 
the funding of educational training centers at the level of 
college or professional schools.
    Women are, in my humble opinion, strong opinion, the center 
of love, beauty, health, and longevity, and happiness among 
humankind. Home and family are the base for health and 
happiness. If this country establishes these ways of health and 
happiness, and prevents and treats physical and emotional 
disorders in a more natural way, America will become a symbol 
of health and happiness for the entire planet. America will 
become a leading light for all humankind, beyond the 
establishments of power, politics, and economies. This is the 
way of a great America, to open a new era
of humanity for the 21st century. In this way, America will 
become the creator of one peaceful world for a healthy mankind.
    Thank you very much for this wonderful opportunity.
    [Applause.]
    [The prepared statement of Mr. Kushi follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.023
    
    [GRAPHIC] [TIFF OMITTED] T1437.024
    
    [GRAPHIC] [TIFF OMITTED] T1437.025
    
    [GRAPHIC] [TIFF OMITTED] T1437.026
    
    [GRAPHIC] [TIFF OMITTED] T1437.027
    
    [GRAPHIC] [TIFF OMITTED] T1437.028
    
    [GRAPHIC] [TIFF OMITTED] T1437.029
    
    [GRAPHIC] [TIFF OMITTED] T1437.030
    
    [GRAPHIC] [TIFF OMITTED] T1437.031
    
    [GRAPHIC] [TIFF OMITTED] T1437.032
    
    [GRAPHIC] [TIFF OMITTED] T1437.033
    
    [GRAPHIC] [TIFF OMITTED] T1437.034
    
    [GRAPHIC] [TIFF OMITTED] T1437.035
    
    [GRAPHIC] [TIFF OMITTED] T1437.036
    
    [GRAPHIC] [TIFF OMITTED] T1437.037
    
    [GRAPHIC] [TIFF OMITTED] T1437.038
    
    [GRAPHIC] [TIFF OMITTED] T1437.039
    
    [GRAPHIC] [TIFF OMITTED] T1437.040
    
    [GRAPHIC] [TIFF OMITTED] T1437.041
    
    [GRAPHIC] [TIFF OMITTED] T1437.042
    
    [GRAPHIC] [TIFF OMITTED] T1437.043
    
    [GRAPHIC] [TIFF OMITTED] T1437.044
    
    [GRAPHIC] [TIFF OMITTED] T1437.045
    
    [GRAPHIC] [TIFF OMITTED] T1437.046
    
    [GRAPHIC] [TIFF OMITTED] T1437.047
    
    [GRAPHIC] [TIFF OMITTED] T1437.048
    
    [GRAPHIC] [TIFF OMITTED] T1437.049
    
    [GRAPHIC] [TIFF OMITTED] T1437.050
    
    [GRAPHIC] [TIFF OMITTED] T1437.051
    
    Mr. Burton. Sounds like some people like you quite a bit. I 
don't even get that kind of applause when I go home. 
[Laughter.]
    First of all, let me ask a few questions here.
    Ms. Mack, when you had your breast cancer, did you have it 
in any of your lymph nodes?
    Ms. Mack. No, I did not. It was diagnosed early enough. I 
had no lymph node involvement. Therefore, my prognosis was much 
better.
    Mr. Burton. Did you have any chemotherapy?
    Ms. Mack. Yes, I did. I had 6 months of preventative 
chemotherapy. At the time I was diagnosed, the protocol for 
breast cancer without node, lymph node involvement, had gone to 
6 months of preventive chemotherapy following a mastectomy. 
That wasn't done even a year before. Usually they didn't follow 
along with anything. And then the 5-years of Tamoxifen after 
that.
    Mr. Burton. Did you have radiation, too?
    Ms. Mack. No, I did not.
    Mr. Burton. Did not have to have radiation?
    Ms. Mack. No, I did not.
    Mr. Burton. I recall when my wife had her breast cancer and 
she did have it in five of her lymph nodes, and that's why the 
prognosis was not that good. One of the most tragic things that 
people go through is, when they start, women start to lose 
their hair after the chemotherapy. So I just wish everybody in 
America could have the opportunity to share the kinds of pain, 
mental pain, that women and their husbands go through when that 
sort of thing occurs, in addition to the other side effects of 
cancer that affect the family life.
    You are to be commended for what you are doing. We really 
appreciate it. I am sure other Members will have questions for 
you.
    I do want to ask Mr. Kushi a few questions. You have--
apparently a lot of these people had diseases that would have 
been deemed terminal illnesses before they went on your 
program. Some of those people you mentioned had lymphatic 
cancer and they also had cancer that had spread into the 
stomach and into the pancreas. I heard one that said the liver, 
which I always thought was a terminal situation. How do you 
account for the reversal of their problems? Is it strictly 
because of the macrobiotic diet you talked about?
    Mr. Kushi. All cancers are heavily related to and caused by 
daily eating. For example, pancreatic cancer, as I mentioned, 
is caused by heavy poultry eating.
    Mr. Burton. Poultry?
    Mr. Kushi. Poultry and egg eating, and also shellfish 
eating, and hard-baked flour, et cetera; of course heavy fatty, 
oily foods. So now when we approach this cancer, we must 
reduce, eliminate or reduce those foods which we're eating, and 
we are recommending more grain, vegetables, and other healthy 
ones. We try to eliminate as soon as possible from her body or 
the patient's body the effects of accumulated fat and those 
accumulated bad influences.
    Mr. Burton. How do you eliminate that? Some people talk 
about these like chelation therapy. Do you just do it by diet?
    Mr. Kushi. Through the diet, a very simple way. I would 
like to present maybe one example.
    Mr. Burton. Sure. Go ahead.
    Ms. Akbar. Hi. My name is Chris Akbar. I am one of Michio's 
assistants in Boston. In 1985, I was diagnosed with 
inflammatory breast cancer at Yale-New Haven Hospital. I was a 
grad. student working on a Ph.D. in physics at the time. My 
diet consisted primarily of ice cream, chocolate, cheese 
omelets, and pizzas. I was very fat. I weighed 170 pounds. 
Primarily dairy food and sweets.
    I discovered a red hot inflammation in my breast, very 
painful. I went and had penicillin for 2 weeks and nothing 
happened. Then I had a mammogram that showed nothing. I had 
ultrasound; it showed nothing. I finally had a surgical biopsy. 
They told me I had inflammatory breast cancer. This was in 
1985. They told me I had 2 or 3 months to live. They said it 
was the most lethal; it was immediately in my lymphatic system.
    I said ``Why do I have cancer?'' to my doctors. This was at 
Yale Medical School, and they had a lot of research there. They 
said, ``It's genetic.'' But nobody ever had cancer in my whole 
family.
    Then I said, ``What can I eat? I am huge. I am obese. What 
can I eat?'' They said, ``Don't lose an ounce, because if you 
lose any weight, the cancer is going to be killing you even 
faster, if your body is starting to waste away. So have some 
Chocolate Ensure, which is made out of basically sugars and 
oils.'' They served us chocolate-covered donuts in the waiting 
lounge of the radiation laboratory where I was going. I thought 
something was a little bit strange.
    Anyway, I started chemotherapy the next day. It was CAF. It 
was adriamycin, 5-FU, and cytoxan. Adriamycin made my hair fall 
out within 3 weeks, and I was devastated by that, plus 
nauseated. I went through menopause at the age of 33, 
basically, because of the drugs. Then I did radiation twice a 
day for 6 weeks. That was a very intense experience also.
    Meanwhile, I had read a book about macrobiotics. It was by 
a physician from Philadelphia who had prostate cancer that had 
spread throughout his bones. He was basically a hopeless case. 
He was the chairman of Methodist Hospital. He picked up some 
hitchhikers who were hippies back in the late 1960's who said 
``Try a macrobiotic diet, it will save your life.'' Well, he 
did. After 1 year of macrobiotics, he was completely cancer-
free, with no other medical treatment. He was on a gourmet 
French diet, with heavy fats, heavy meats, heavy sauces, wine, 
everything. He was from Philadelphia and he went to Le Bec Fin 
Restaurant, basically.
    I was on a gourmet chocolate diet. I said this is the cause 
of my problem. I really think dairy food goes to the mammary 
part of my body and creates a problem. It just makes sense. I 
picked up a book, the Cancer Prevention Diet Book you have. It 
said, ``Dairy food and sweets is the primary cause of breast 
cancer.'' That was the main thing I was doing. It said, ``Stop 
those things and start taking some things to clean it out.''
    Well, I came to Michio for counseling. His wife had just 
done her cookbook. I said this is my bible. I am just going to 
follow this book. I did. Michio gave me very simple remedies. 
He gave me a plaster made out of barley and cabbage that I just 
put on my breast every night. In 5 days, I felt the tumor 
getting smaller and softer. He gave me something to reduce my 
weight, simple vegetables like daikon, which is a long white 
radish, and carrots. I just grated them and ate that every day. 
I lost 50 pounds within like 2 months. All this fat came off of 
me.
    I had a really bad pancreas from so many eggs and cheese I 
had eaten. He gave me a simple drink made out of cabbage, 
carrots, onions, and squash, called Sweet Vegetable Drink. I 
took that and my pancreas cleaned out. I no longer had sweet 
cravings. I didn't want chocolate every afternoon at 4. I had 
chronic constipation. I think that is often associated with 
breast cancer, because the toxins sort of buildup in your body 
and you can't eliminate them. He gave me something to 
strengthen my intestines, a simple like oriental drink made out 
of a white powder, a root powder, like a starch that 
strengthened my intestines.
    I just did his diet. I never have touched, in 14 years 
since, I haven't touched any ice cream or chocolate or dairy 
food or meat, and I don't miss it at all, or sugar. After 2 
months, I got incredible diarrhea one night. I wondered what 
was happening. The next morning I had realized that my entire 
tumor that was hanging on here was completely discharged out of 
my body naturally.
    What had happened was in your intestines, when you eat, the 
nutrients from the foods that you are eating are absorbed and 
it changes the quality of your blood. If you are taking these 
things like I mentioned, these macrobiotic-type things, it 
actually goes through like a solvent and goes in and through 
your body and cleans everything out. So as I was losing all of 
this fat, everything was literally, along with the tumor, was 
just absolutely discharged out of my body. It was very 
effective.
    I am a scientist, so I kept very careful records of what I 
was doing and how my body was reacting. I found if I took any 
extra oils--he had told me oil is like throwing oil onto a 
flame, which was this inflammatory tumor--if I ate any oil, the 
redness would come back. In fact, it did, the inflammation. I 
could actually cause the inflammation to come back. I just 
literally eliminated all of that stuff that caused the cancer, 
took these things, these vegetables and grains and beans and 
seaweeds, and whatever, to clean out. Literally it flushed out 
of my body and saved my life.
    So in 2 months, when I was supposed to be dead even with 
the medical treatments, it saved my life. It was so effective. 
It literally used the food as a cleaner to go through and clean 
out my body, very effective. I was really impressed. So I'm 
alive; 14 years later, here I am.
    Mr. Burton. I would guess you would be impressed.
    [Applause.]
    Mr. Kushi. Those friends, besides many hundreds of other 
people, have been experiencing similar ways.
    Mr. Burton. Well thank you, Doctor.
    My time has expired. Let me yield now to my colleague, Ms. 
Norton.
    Ms. Norton. Thank you very much. Both of these testimonies 
have been very, very impressive and very important.
    I would like to know, Mr. Kushi, what is your training or 
your background that led you to the development of your 
approach?
    Mr. Kushi. Fortunately, I was not in medical school. I was 
a political science student, international law. After the end 
of the war, the World War, I wanted to have world peace. So I 
became a world federalist. Mr. Norman Cousins and a friend 
sponsored me, and I came at the age of 23 years old to America, 
50 years ago. Then while I was studying in Columbia 
University's graduate course, accumulating various kinds of 
documents, the drafts of world constitutions and other related 
documents, I started to wonder whether even if this world 
government, world federation is born, how about sickness, how 
about love, how about sharing of people, how about prejudice or 
discrimination, those mental problems. And then I wondered, 
unless those things were corrected, there is no world peace.
    So I started to search for a solution, including visiting 
Dr. Einstein and Mr. Norman Cousins and various others, Thomas 
Mann, and so forth. But there were no active clear answers. But 
we have made religions, hoping to make people better. But 
between religions, then fights arise. Then we hoped education 
had high expectations, and also material prosperity; then 
again, unfortunately, sickness spread, crime spread.
    So I started to--I gave up all political science studies 
and I started standing on a corner in New York's Times Square. 
Since I had been here, I started to watch people. What is 
humanity; what is humanity? It took 2\1/2\ months; then I 
understood. Everyone had been, mankind has been made by two 
factors: one, environment, and two, what we eat.
    What we eat is entirely in our hands, freedom. Individual 
people are freely choosing, freely cooking and so forth. Now if 
proper diet is eaten, and the environment, certain clean 
environment is done, then happy conditions come. If not, then 
sickness arises, crime arises, violence arises. So then I found 
that in the American diet of the 19th century, 20th century, 
comparing 19th century and 20th century, tremendous change 
occurred. More increase in animal food. More increase in dairy 
food. More increase in refined sugar. More increase in mass 
production of food, agricultural products, et cetera, and so 
forth.
    Exactly parallel with this change of diet, heart disease is 
increasing, cancer is increasing, and various kinds of so-
called degenerative diseases are increasing, as well as so-
called virus diseases and also mental problems have increased. 
So I wanted to change our current way we're eating. Then we 
began the so-called natural food movement and cooking classes. 
This is my background.
    Ms. Norton. It is certainly true, particularly when 
studying populations of different countries, research has begun 
to show the associations that you indicate. I also note that in 
your testimony you seem to have an integrative approach as 
well. You indicate the debt we owe to conventional medicine, 
and then you indicate that there are certain things that 
medical schools and others can do to integrate these approaches 
in order to get better results for people who have the disease 
or to prevent the disease.
    May I ask if the people who are under your care, if you 
require that they not engage in conventional treatment or if 
some of them have also been engaged in conventional treatment 
while being involved with your diet?
    Mr. Kushi. Those things are up to the patient. The entirety 
of patients have entire freedom. However, because the cause is 
diet and lifestyle, so basically the cure is, basically the 
diet, proper diet and proper lifestyle. Then in addition to 
that correction, patients, if they want chemotherapy or 
radiation or acupuncture or herbal medicine, that's fine. They 
can attach these. But I hope this treatment can be mild and not 
overdosed. Because in my opinion, and in other people's 
opinions, by overdose of chemotherapy, overdose of radiation, 
this often affects so much the suffering of the patients, not 
only suffering, I wonder maybe shortening their life also. A 
moderate approach, I hope, the medical treatment can take.
    Ms. Norton. I just want to say to Mr. Kushi, I think 
increasingly many people adopt the point of view you just 
expressed, that the treatment is worse than the cure, and many 
people forego such treatments.
    I just want to say in closing to Ms. Mack, how important 
her leadership has been, that when you have come forward and 
others like you have come forward, you cannot imagine the 
effect you have had on people who would not otherwise come 
forward. By doing the race, there are women whose attention we 
could not possibly get except through the dramatic intervention 
of well-known women who are first, willing to indicate that 
they have had the disease, and then willing to show that the 
disease can be defeated. I certainly want to thank you for 
that.
    I have a sister who is now president of a college, who has 
had breast cancer and feels herself entirely cured. Since I am 
her sister, not only do I want her to be cured for that reason, 
but because this thing may also run in families. I certainly 
appreciate the leadership you have given to this work.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Ms. Norton.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mrs. Mack, I just had a couple of questions. First of all, 
your leadership has been tremendous in the private sector in 
providing awareness and also raising funds. You cited in your 
testimony how much money had been raised privately just by the 
activities you have been involved in. Maybe you could comment 
to the committee on your suggestions for research and for 
funding, and what do you think would be an appropriate private-
public mix of funds?
    Ms. Mack. Well, I believe the Congress is doing an awful 
lot in the doubling of the moneys for NIH which Connie has been 
involved with. Getting the funding doubled for NIH will help 
all diseases. I believe that all that we do in research is 
where we are going to find the true answer to not just cancer, 
but all other diseases, and through research, through 
alternative medicines. Research in every way is going to make 
the difference. Public and private, we all have to work 
together. It is a large problem. The Government can't do it 
alone, and neither can the private sector. I think whenever we 
can partner and whenever we can work together, the cures and 
the research will come to make a difference.
    Mr. Mica. One of the other things that I wanted to ask 
about was that you had talked about awareness and self 
examination. There seems to be somewhat of a lack of public 
awareness. How do you think we should best approach these 
campaigns from a private sector's standpoint or public or a 
combination? What do you think is most effective in getting the 
message that you are trying to get out to women and others?
    Ms. Mack. Well, I believe it is through hearings like this, 
through races, through advocacy, that all the women in this 
room, and all the people in the cancer communities do. We are 
blessed in this country with many generous, wonderful people 
who raise money in the private sector, but also our Congress 
and our administration, work diligently to find the answers to 
cancer, in particular, and diseases in particular. But I just 
think we have to continue. We can't sit, rest on our laurels. 
We have to continue to be out front and continue the fight, and 
to make more people aware.
    I mean, as obvious or as outfront as I have been and Dr. 
Kushi and everyone else, there are many, many people out there 
who haven't heard a word we have said. We have to continue to 
get to the underserved. We have to continue to get the message 
out that early detection, until we find a cure, is the way to 
deal with most diseases if you find it, or prevention through 
ways that have been proven to make a difference. It takes a lot 
of money. It takes a lot of time, and it takes a lot of heart. 
Through public and private, we can do it together. We cannot do 
it alone.
    Mr. Mica. Thank you.
    Mr. Kushi, you spoke quite a bit about diet and changes in 
lifestyle and prevention. What do you see as the role of 
research today and how important do you think that is in 
finding a cure for cancer or addressing cancer treatment?
    Mr. Kushi. There are many approaches for cancer treatment 
and many ways we should also examine, and research should be 
done. However, as I pointed out, basic problems of cancer and 
other disease are what we are eating and daily life. Therefore, 
do research to associate diet and daily life with cancer, and 
if more research goes there and finds what kinds of results are 
coming, such as test in the clinical trials, in the hospital, 
this and that, et cetera; and data accumulation. For example, 
it's very easy to confirm that blood pressure comes down or 
cholesterol comes down, it is very easy by changing diet. Same 
thing, like for diabetes, it is very easy to offset, even 
though insulin has been consumed. Situations are also very easy 
by dietary control.
    In a similar way, if you subject patients to a study about 
this type of cancer, or just study this type of sickness, how 
diet is related. I suppose I or someone else, we will be very 
happy to confirm that this kind of diet will offset or reduce 
or prevent that; while, if the current way of eating continues 
together with any medical treatment, how different outcomes 
will result. It is very clear, you can see that. Then after you 
have accumulated those data, then you can apply these clinical 
tests in the hospitals, you can apply it in other health 
clinics. Those data can be created easily in 6 months, 1 year, 
or at most 2 years' time, enough data which we can convince the 
people who are watching the healthcare field and educational 
field.
    Mr. Mica. Thank you, Mr. Chairman. I yield back.
    Mr. Burton. Thank you, Mr. Mica.
    Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman. I want to compliment 
both of our witnesses. You have very inspirational messages, 
not just to this committee and the Congress, but to the 
American people at large.
    I detect the common theme of both of your testimonies, is a 
sense of personal responsibility. In your case, Mrs. Mack, your 
detection was by yourself through self examination. The message 
there is that notwithstanding all the medical instruments that 
are now available for detecting breast cancer, there is really 
no substitute for the once-a-month self-examination procedure.
    In your case, Mr. Kushi, the knowledge that what you eat is 
what you are, I think, is an important message that we have to 
take very, very seriously. I do think that the points you make 
in your testimony, Mr. Kushi, have been well expressed by 
nutrition experts, by people in the medical profession who are 
constantly hammering on your diet, don't eat fats and stay away 
from this or that. So I think the general message is not that 
different in terms of the medical profession and what you are 
espousing.
    The point, however, of getting the message earlier in life, 
particularly in places like the school lunch program in our 
schools and in our training programs. I have been told that 
medical doctors have less than one course subject on nutrition 
and the diet. They go out and they are treating patients with 
very serious illnesses, with very little perception about the 
importance of diet. So I think we have to carry the message to 
the professionals and convince them that the words they expound 
about diet truly have meaning. I think that that is what you 
have brought to this committee. I commend you for your work and 
for your leadership, and commend your book. I will get a copy 
and read it from cover to cover. Thank you very much.
    Mr. Kushi. Thank you.
    Mr. Burton. Thank you, Mrs. Mink.
    Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. It is a pleasure to 
have heard both of you and to Mr. Kushi, to have had the women 
who have appeared here and gentleman to comment on the 
successes.
    Priscilla Mack, you are so right. You know, over and over 
again, you said early diagnosis makes the difference. I am 
pleased that in my area with the American Cancer Society, with 
a number of hospitals involved, with Hadassa, we have been 
bringing a program called Check it Out to high schools, and 
inviting the 11th and 12th grade females to come together in an 
assembly and to learn self-examination. They ask very graphic 
questions. They learn it not only so they can get into the 
habit of doing it, but so that they can be the messenger, to 
bring the message to their older sisters, their mothers, their 
grandmothers, their friends. I guess that this is something 
from what you said, in terms of how you even discovered that 
you had a challenge, it is through the self detection.
    So I want you to know how much I appreciate what you have 
done, and the fact that you have brought an enthusiasm and such 
strength to the whole concept of research and our own personal 
involvement, and certainly the Komen Race for the Cure. No 
wonder the money has doubled over the last year, because we 
have had inspirational people. So thank you.
    I am interested, Mr. Kushi, whether or not first of all, 
these people who are such great testimonials to the concept of 
the dietary facet of it, do they come to you as a last resort? 
And how do they hear about you? Do you have any centers in 
Maryland?
    Mr. Kushi. Your home, I hope your house will become a 
center in the near future.
    First of all, many people are coming to see me or my 
associates, or teachers. Many of them have already received 
medical treatment. They were declared--no way, terminal cases, 
or they themselves were dissatisfied with the results of the 
medical treatment. Those people come. Of those people who come, 
maybe 40 percent of people are this type.
    Second is the people who got sickness and got diagnosed. 
Then they start before they receive conventional treatment, 
they start to search for alternative ways and come to us. That 
is the second approach. That may be about 30 percent or so.
    Another number of people for the sake of keeping their 
health, for the sake of precaution, they also come. And people 
who have come to us because they found at that time maybe stage 
one, two, or three of cancer, different stages. But as I said, 
and as you know, many women are hesitant to go in for drastic 
treatment. So before receiving treatment, they search. 
Otherwise, after they receive some drastic treatment, then they 
still are told there is no hope. Then they start to search.
    Mrs. Morella. Do they hear about you basically through your 
book?
    Mr. Kushi. Yes, through words, through books.
    Mrs. Morella. Word of mouth, words spread.
    Mr. Kushi. Yes, that's right. We are not a commercial 
venture, so we never advertise. But through books, through 
education, and also our educational center, the Kushi Institute 
in Massachusetts. However, through that dedication for many 
years, many graduates have come. I develop those teachers. 
Throughout the world, several thousand teachers are out there. 
In this country, many States, many cities have also macrobiotic 
teachers. They are doing cooking classes, they are doing health 
advice or various social work.
    Mrs. Morella. You would, it seems to me, suggest that 
doctors, that all doctors, all of the health practitioners 
include as part of their treatment that there be the 
recognition of how food as well as exercise and other moderate 
lifestyles, the role that food plays.
    Now she mentioned some of the mixtures that you made. I 
mean do you have to have it in mixture form? Can you just have 
like good vegetables and have a list of dos and don'ts? Does it 
have to be mixed in a certain proportion?
    Mr. Kushi. It depends on the condition. For example, you 
know, like colon cancer, that more is caused by beef and pork 
and cheese, eggs. Eliminating that effect, then we need like 
grated daikon, grated carrots, green leafy vegetable juice, and 
so forth. More opposite factors we bring, and other factors to 
balance the condition. In the case of, like I would say 
intestinal problems, then there, traditionally the oriental 
countries have been using kuzu and also pickled plums, which 
are very good for digestion; and also, suppose, if you want to 
straighten out pancreatic cancer, then you better have sweet 
vegetables like cabbage, carrots, squash and onions: those 
finely chopped in equal amounts, and with three or four times 
water, cooked 25 minutes. That's a sweet vegetable drink. Drink 
every day, one cup, two cups. That makes it easy to solve the 
cancer.
    In the same way, our approach is, No. 1, the safest 
approach. No. 2, cost value is low. No. 3, at home they can 
practice and use foods, food which they can get very easy. 
Using them, they make home remedies.
    Mrs. Morella. I guess I am going to have to buy the book. 
Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    To Ms. Mack, I want to thank you for being a leader in this 
area. So often what happens is, I think it was Martin Luther 
King, Sr., who said that you cannot lead where you do not go, 
and you cannot teach what you do not know. So often people go 
through difficulties. Once they get through their difficulties, 
they almost act like it never happened. But not only have you 
remembered, but you have acted on them to try to help other 
people. I think that there is no greater thing that we can do 
as human beings than to use our pains and our problems to turn 
them around and use them as a passport to help other people. So 
I thank you for your leadership.
    As I was looking at the statement of our good friend Mr. 
Kushi, I just want to ask you a few questions because I am 
truly fascinated. Mr. Chairman, I am so glad you had this panel 
because I did not expect it to be so interesting. [Laughter.]
    Mr. Burton. Are you inferring that this committee is not 
interesting? [Laughter and applause.]
    Mr. Cummings. One of the things that you talk about is 
cost,* [see below] that so many people, they can't get 
healthcare because of the cost. I guess they may not have 
insurance or whatever. I am sure it must be very frustrating to 
you and probably I'm sure you too, Ms. Mack, when you are on 
this mission to help people and to know that cost of treatment 
is something that because people can't afford certain 
treatments, that people are literally not only suffering, but 
dying. I mean that must be a very frustrating thing for you 
all. I just would like for you all to comment on that.
    Mr. Kushi. I agree, and for example, more in conventional 
medicine, doctors learn in medical school training there is no 
single course for nutrition, and diet; but by eating we form 
blood, we form our limbs, we form all sides of our bodies. 
Without understanding that, there is no way to understand 
cause.* [It seems that Mr. Kuchi heard ``cause'' instead of 
``cost'' in the question of Mr. Cummings. Therefore, he 
addresses the frustrations of symptomatic medicine where 
``cause'' is not eliminated.] Therefore, all patients are 
frustrated. If treated with a symptomatical approach, symptoms 
maybe might be temporarily eliminated; but then the cause still 
continues, still taking heavy meat, et cetera. Then again, 
symptoms come back 2 years later, 3 years later, all very 
shortly. Again, in the hospitals, even in hospitals, what are 
patients fed in there? They are fed the cause of the sickness, 
that beef or ice cream or whatever. This is a very ironic 
situation!
    While trying to help sickness, they are creating more 
sickness, and endless heavy treatment, more increasing 
chemotherapy; more radiation is needed; and doctors themselves, 
I know, many doctors are frustrated. Why should we not open our 
eyes to the cause. Without knowing the cause, there is no way 
of cure. That's the medicine of symptoms, but not cure. But 
cause is, day to day our own way of eating, our own way of 
lifestyle! There probably, our thinking, consciousness must 
change. We want to have the prosperity, we want to have that. 
Our thinking must need to change, but at the same time, we can 
begin from day to day life now.
    We lost family cooking, with all outside fast food and this 
and that, et cetera; and together we are losing family cooking. 
Our family relations between father and mother and the children 
are becoming more and more troubled. Also in school, the 
concentration of students becomes troubled. The school lunch 
program is more fatty food, more heavy food, more sugary food. 
They can't concentrate in the school. Then unless we bring back 
to America and the entire world, which is influenced by 
America, good way of eating again, there is no way to solve 
this. America and other countries are all sinking down 
physically and economically.
    Mr. Cummings. I must tell you that you already had an 
impact on me. I have gone back there to the little room here to 
eat my potato chips, roast beef, and my Coke, and I could 
hardly get it down. [Laughter and applause.]
    As a matter of fact, I left three-fourths of the bag of 
potato chips out there. I think I am going to throw them in the 
trash.
    Mr. Kushi. Let us think of our ancestors, your ancestors, 
all mankind's ancestors. Traditionally, we have been eating 
whole grains day to day. Right? Either bread form or rice form 
or whatever, and then vegetables, then beans. From beans, bean 
products we have been getting more vegetable quality proteins. 
Some countries may be getting seaweed, and so forth, a mineral 
source. Then we are doing home cooking. Animal food, like beef, 
our ancestors consumed much, much less. I have no objection to 
having that, animal food, but much less percentage, and not 
like currently, like antibiotics--or hormone-treated beef, and 
so forth. Then we didn't have cancer in the 19th century, 18th 
century. Why not? The tremendous change in the diet. Tremendous 
decline of what we are eating!
    Mr. Cummings. Thank you very much. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Cummings. I didn't know you were 
a standup comedian, but you are pretty good. [Laughter.]
    Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Mr. Kushi, your diet seems to be quite the opposite of 
several diets that are popular right now in this country as far 
as losing weight.
    Mr. Kushi. For example?
    Mrs. Biggert. Like the Zone diet or sugar busters, those 
high protein diets, which are high in fat, animal and dairy. 
But do you think that these type of diets then will contribute 
to greater cancer risks?
    Mr. Kushi. To certain period, for certain period, to 
certain symptoms they maybe contribute. But what macrobiotics 
recommends is very traditional, thousands of years or maybe a 
million years, mankind's experience, generations to 
generations, whole grain and vegetables, beans, et cetera. And 
that is the base. It then depends on climate, depends on where 
you live. Cooking methods change, and also combination of 
vegetables, combination of foods change. But the base is there, 
grains and vegetable base. Animal food you can add 5 percent, 
10 percent, depends on your condition. Fruits also you can add, 
it depends on the seasons.
    Suppose we didn't have in Washington, DC, our 20th century 
banana, because it simply didn't grow here. Now we are taking a 
banana every day. Or sugar, we didn't have sugar cane. We are 
not growing it here. All climates are different. Therefore, we 
need for those things to have moderation--tropical products, et 
cetera. That means environmental consideration is needed.
    Mrs. Biggert. What about the role of exercise then?
    Mr. Kushi. Oh yes. The role of exercise is great. However, 
recently they are recommending that some special exercise is 
very popular now, certain types of exercises. I would say yes, 
you may do so. However, more important is day to day work, day 
to day active living. I am recommending to the sick people, the 
people who are sick and my associates, I am recommending every 
day with hot wet towel squeeze, scrubbing their whole bodies 
twice, morning and night, making blood circulation active, and 
so forth. Then take a walk at least a half hour, taking a walk 
if they can walk. Then if they can do any light exercise, fine. 
But not strenuous exercise. Then every day, singing a song, 
happy song--``You Are My Sunshine'' or whatever, not a 
depressing song--every day. That opens the chest and makes the 
breath and circulation better, and the emotions up. Also I am 
recommending people wear cotton clothing, and more cotton 
bedsheets and pillow case, instead of synthetic ones; and more 
also putting green plants in the home, which emit oxygen and 
keep the house better. Also, this may be a problem now, not 
using a computer much if you are sick.
    Mrs. Biggert. It sounds like a whole positive attitude.
    Mr. Kushi. Yes. Also microwave cooking is very 
questionable, microwave cooking. Now 75 percent of the American 
families are using microwave cooking. This is a big problem, 
question. Traditional cooking, like charcoal cooking, or the 
gas stove is much, much better. Furthermore, the like 
electromagnetic environment it is better to examine. Also, as 
home family cooking will be recovered, and I hope they have a 
chance, the whole family has a chance some evenings at dinner 
time, to talk to each other. They should sleep not at midnight, 
more like 10 or 11, and so forth. In other words, healthy, 
normal healthy life!
    Mrs. Biggert. Thank you.
    Mrs. Mack, I really appreciate your testimony and your 
presence here after the Race for the Cure last Saturday. It is 
amazing how across the country this type of activity is being 
conducted. I know in Illinois we had a big event there. I have 
to say that we didn't have quite the 66,000 people that were 
here in Washington, DC. But I think that does so much to raise 
the consciousness of the problem.
    But in your work with breast cancer survivors, are there 
characteristics that you find that people have in common that 
are successfully overcoming their cancers?
    Ms. Mack. Well, I will have to speak only for myself and 
the people I speak to, my impression of that. But I find like 
Mr. Kushi says, if you have a higher power and you do 
everything on your behalf that you can do to further your 
recovery, take care of yourself to find out what's out there to 
take care of it, and then what you can't do, let go and let God 
handle. Also, if you can do that and you have the serenity to 
do the right things for yourself and have that positive 
attitude, I find that through all of these things, we are 
changing the mindset that cancer is a deathnell. When we 
continue to do that, we also bring to that good mental health, 
which also affects your physical health.
    Mrs. Biggert. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Well, thank you, Priscilla. You have been 
lovely as always, and we really appreciate your comments, 
especially the last ones you made. I think those are very 
important about having the higher power, the supreme being. A 
little prayer doesn't hurt. It doesn't hurt a bit. It kind of 
calms the soul and helps stabilize everything.
    Mr. Kushi, I pledge to you, every morning I am going to 
start singing ``You Ain't Nothing But a Hound Dog'' so I can 
get myself off to the right start.
    Let me thank you both. I think it has been very, very 
enlightening. We really appreciate it. Mr. Kushi, your book, I 
am going to recommend it to a number of my colleagues. I think 
they would like to read it as well. So thank you both very 
much.
    Mr. Kushi. May I just add one thing about diagnosis? Very 
simple. For the family, to know where diagnosis is about cancer 
conditions, in the beginning stage. At this place,* [Mr. Kushi 
points to the outside edge of his hand, below the little 
finger] if green color comes out, then we have to suspect in 
the near future cancer may begin.
    Mr. Burton. Here?
    Mr. Kushi. Yes. In the case of breast cancer, this center, 
green straight line * [Mr. Kushi points to an imaginary line 
running down the center of the underside of his arm, up through 
the center of the palm, to his middle finger] comes, in the 
case of risk. This begins 6 months before cancer, one of the 
symptoms. This is an acupuncture meridian, the so-called 
``heart governor'' meridian. It goes across this breast. If 
that meridian is clogged from the breast, then down the arm, it 
then becomes a green color in the case of cancer.
    In the case of the uterine cancer or ovarian cancer, here * 
[Mr. Kushi grasps his chin with his thumb and index finger] if 
we have a very fatty, large deposit, and especially a hard one, 
then uterine cancer, ovarian cancer or cervical cancer is very 
suspected. Prostate cancer too, is very suspected for men.
    Mr. Burton. Right here under the chin?
    Mr. Kushi. This. It's because low in the head reflects low 
in the body. It's very accurate. Various simple way of 
detection are available also, as information for home use.
    Mr. Burton. Thank you, Doctor, very much. Thank you both. 
We really appreciate it. Thank you all those who are 
applauding. I appreciate that as well.
    We would like to now have Dr. Gardener, Ms. Zarycki, and 
Ms. Bedell-Logan come forward, please.
    Dr. Gordon, since you have time constraints and you have to 
leave right away, you said you have a relatively brief 
statement you would like to make. So we will allow you to do 
that. Then we will go right to our ladies.
    Dr. Gordon. Sure. I wanted to be able to stay around for 
questions though, if you would like to ask the questions too. I 
just was saying that I have to be back there by 3.
    Mr. Burton. In that case, if you wouldn't mind, Dr. Gordon, 
I think we will go ahead with this panel, and then we'll hold 
you, because I think we will be finished by 3.
    Dr. Gordon. OK, great.
    Mr. Burton. Let's start with Ms. Zarycki. Did I pronounce 
that correctly?
    Ms. Zarycki. It's Zarycki.
    Mr. Burton. Zarycki, I'm sorry.

STATEMENTS OF CAROL ZARYCKI, NEW YORK; N. LEE GARDENER, PH.D., 
         RALEIGH, NC; AND LINDA BEDELL-LOGAN, SACO, ME

    Ms. Zarycki. I was going to say good morning, but it's 
really good afternoon.
    Mr. Burton. Well, these hearings sometimes run a little 
ways into the afternoon, but they are very important.
    Ms. Zarycki. Yes, they are. Thank you for the opportunity 
to testify regarding complementary and alternative practices, 
which I will call CAM, and the role of women's cancer 
treatment. I am Carol Zarycki, an advocate and breast cancer 
survivor of 2 years. In my written testimony, I have outlined 
issues and instances where we as patients have had to do most 
of our own research in seeking out CAM protocol. I will 
highlight some of these points and summarize my personal 
approach.
    I am speaking for myself and other patients and advocates 
whom I'll call we, to request legislation for CAM medical 
research and funding rather than to continue regulation of 
standard allopathic treatments, the costs of which are 
ultimately borne by the taxpayer and the Government, and which 
do not show an increase in cancer survivor statistics. We are 
tired of hearing about measures such as time to recurrence, 
tumor regression rate, or time to disease progression, when the 
real issue is preventing cancer in the first place. We would 
like to see a shift of funding and research attention to the 
review of a standard cancer protocol that is less toxic, better 
targeted, and more effective, while at the same time, focusing 
on CAM therapies.
    The role of insurance coverage is a primary factor in the 
CAM choice process, and needs to be addressed, not just for 
patented drugs or diseases with a name, thereby endorsing 
insurance coverage, but for natural alternative treatments, so 
that we don't have to invent new names for new types of 
cancers. We need to have access to treatments and clinical 
trials that will work with us as individuals rather than be 
limited in choices. Some toxic medical procedures given 
routinely can leave the immune system in deep disrepair, making 
one more susceptible to recurring disease for this very reason. 
Ironically then, one would have to seek alternative treatment 
not covered by insurance to alleviate or attempt to alleviate 
this previously non-existing damage.
    Information needs to be made available so that individuals 
are fully informed of options and possible treatment outcomes, 
including quality of life and survival rates for the treatments 
they are choosing. Most women given Tamoxifen do not need the 
drug, and may even get the danger of side effects of blood 
clots in the legs or lungs, uterine cancer, strokes or heart 
attacks. A few of these women will have disease progression or 
recurrence anyway.
    New legislation is required for alternative therapies in 
cases where old or even new drugs may not demonstrate an 
increased survival rate or even a better rate of progression-
free survival.
    There needs to be a recognition of chemicals in the 
environment and their effect on hormones from the fish we eat 
to our plastic-bottled drinking water. Our country regularly 
imports fruits, vegetables, and foods that have been treated by 
toxic methods, even when the imported food is labeled organic. 
Since it has been demonstrated that hormonal imbalances are an 
underlying factor in a growing number of breast and 
reproductive cancers, wouldn't it make sense to research 
natural hormones rather than add synthetic tamoxifen, 
raloxifine or premarin to an already overloaded hormonal 
system?
    Evidence-based testing methods and not just scientific 
competition within the medical community, without regard for 
the population being studied, need to be employed. Trials which 
indicate life extension should additionally be able to 
demonstrate that this means for more than a few weeks, and 
should also discuss quality of life issues.
    Non-toxic and non-invasive methods of cancer detection 
should be standardized, instead of encouraging mammograms which 
strongly increase a woman's chances of getting breast cancer in 
her lifetime. Also, for younger women with dense breasts and 
therefore, unidentifiable or undetectable cancer, mammograms 
can weaken the still growing tissues, thereby promoting future 
malignancies.
    A focus on preventive measures which strengthen the immune 
system rather than early detection methods, which can also be 
too late detection, and with their own set of risks and 
hazards, can be incorporated into an individual's lifestyle. 
Allopathic medicine used on its own needs to clinically 
understand the traumas and debilities it is in itself creating, 
not curing. We want to be able to live in peace with the 
treatment decisions we are making, without fear that 
mammograms, therapies, toxic and synthetic drugs are doing a 
potential future harm to another part of our bodies. We do not 
want to hear about 5 or 10 year guidelines that we are being 
measured against, but rather experience peace by knowing about 
immune strengthening practices which will eliminate the need 
for these guidelines and also the topic of recurrence.
    We are requesting a sharing of both conventional and 
alternative medicine, so that it can truly be called an 
integrative complementary medical practice. We must try a new 
approach because the old ways are simply not effective in 
reducing mortality rates. We must try a new approach because 
the old ways are simply not saving our best friends' lives.
    For my personal approach and upon initial diagnosis, I 
spoke to my herbalists, each of whom had started their 
practices due to family members' involvement with cancer. I 
contacted local and national organizations, including SHARE in 
New York City, becoming involved in support groups and 
informational workshops. I spoke with whomever I came in 
contact with who had gone through a similar experience. I 
started keeping a daily journal, prayed more, and learned about 
meditation. I made appointments with alternative naturopaths 
and noted visualization authors. I began juicing and 
nutritional therapy, checked out nutritional cleansing, enzyme 
and vitamin therapies, started ancient Eastern practices of Qi 
Gong and Jin Shin Jitsu, went to healing services and 
ceremonies of different cultures, bought more herbal books, and 
took classes to begin making my own combinations. I became a 
devout fan of acupuncture and studied homeopathy. I wouldn't 
say I did anything radically alternative, but then some 
consider meditation or acupuncture radical.
    I began to teach others what I was learning about my 
favorite non-toxic personally tested alternative methods of 
healing. I have been blessed with a team of surgeons, 
oncologists, and alternative practitioners who have come into 
my life exactly when I needed them, and with whom I continue to 
discuss alternative information and ideas, even though they 
express doubt about the methods I am using.
    There is, I found, a fine line between being cured and 
being healed. While we all want to think of ourselves as being 
cured or on the way to finding new cures, the only way this can 
happen is by allowing a healing to take place on all levels, 
mind, body, and spirit, and which standard allopathic medicine 
does not fully address. This is a highly individual process 
involving reflection and recognition of our relationship with 
surroundings, why we are here, and what we are called here to 
learn, and then working with this process rather than fighting 
it or attaching blame. When we approach this awareness, we have 
already begun to heal and our own energy, spirit, vital force, 
qi, and prana, are strengthened from within, turning the 
healing process into a curative journey. Thank you.
    [The prepared statement of Ms. Zarycki follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.052
    
    [GRAPHIC] [TIFF OMITTED] T1437.053
    
    [GRAPHIC] [TIFF OMITTED] T1437.054
    
    [GRAPHIC] [TIFF OMITTED] T1437.055
    
    [GRAPHIC] [TIFF OMITTED] T1437.056
    
    Mr. Burton. Thank you very much, Ms. Zarycki.
    Ms. Gardener. I wanted to say thank you, Mr. Dan Burton, 
and also committee members, for your role as David in 
confronting Goliath. I appreciate and admire you.
    I had originally planned to sort of talk about my story and 
that's not what happened. But my story has led me to where I am 
now, the place I am now, and to what I have to share with you.
    I also have an intimate knowledge as a result of my 
personal odyssey with breast cancer, of both conventional and 
non-conventional approaches. I probably would have just--I knew 
nothing about breast cancer or cancer really, but that people 
died from it, and was frightened by it. But ended up really 
very much using both of them in depth.
    Up front, I want to say two things. I do not think any one 
approach, any one approach within either of those systems also, 
is right for anyone or for everyone. I have suffered no 
irreparable harm from any non-conventional approach, despite 
having had extensive exposure to many. I feel that every one of 
them has helped me in some way, some more than others. I say 
that because I know that's a concern that a lot of people have 
and a reservation they have about supporting the use of non-
conventional therapies or making them available to people.
    On the other hand, unfortunately, I have to say that--well, 
let me preface it by saying that I think that conventional 
physicians, most of them are very well-meaning and competent in 
what they do. I think they are often more fearful of cancer 
than the patients, and perhaps it's because they are being 
expected to cure something that they know they really don't 
understand. So that can be a very frightening thing, and maybe 
can lead them to be very rigid in the way they treat us as 
patients, feeling like we can't have any deviations and we 
can't waste any time because they are really so very frightened 
themselves.
    But basically in contrast to my experience with non-
conventional approaches, I do feel that I have suffered 
considerable and irreparable harm because of my treatment with 
conventional methods. I think most of us have. Some of us are 
more willing to acknowledge it than others because there's kind 
of a cognitive dissonance there that we want to believe that 
what we did was the best and that everything is OK, and we want 
to minimize I think, the price we have paid in many instances.
    Of course some people have had less treatment than others. 
I guess part of my situation too is that I do not feel that if 
my point of view had been respected, I don't believe I would 
have ever ended up with the number of very invasive kinds of 
procedures that I did have to undergo, from which I continue to 
suffer the effects. One of them is lymphedema, which no one has 
mentioned so far, can be life threatening because if you have 
chronic swelling of the limb, there is a rare type of sarcoma 
which is a very lethal kind of cancer that can develop. It is 
rare, but all of these things are statistics.
    So I guess every day there are people who conventional 
medicine has sent home to die that are finding their way back 
to life, even after they have had, been subjected to the often 
times brutal procedures of conventional medicine. I just wish I 
didn't have to say these things. I really do. I wish that my 
experience had been different, and I wish the experiences of 
many, many of my friends, some of whom I have lost and some of 
whom I have seen go through terrible suffering, who have 
sometimes made it through and survived. I wish I didn't have to 
say these things and have those perceptions.
    I wanted to say a lot of things which I am not going to 
have time to say. I guess maybe I can say that--it's hard to, 
and I know everyone is wanting to go and I am too, because I 
have had a peach to eat today, that's it. I guess maybe let me 
say this. I think we have to find another way to approach 
cancer than conventional approaches, because conventional 
approaches are based on killing cancer. That does not guarantee 
in any way that it is going to heal us or keep us alive. There 
are no guarantees made of that. It is kind of like killing 
alligators instead of draining the swamp. We are not dealing 
with causation, and we are not dealing with healing. I had 
planned to give you some evidence to back up some of that, but 
we won't have time for that.
    I'll just, in ending here, I will say that if anything that 
you hear today makes a difference to you or enough of a 
difference to you, then you will have to do something to make 
some changes. You will have to make some choices. I believe 
that when we choose, we are not choosing just for ourselves. We 
have to keep in mind that we are choosing really now for all 
because it is one world. We are starting to realize that, and 
see that vision I think more and more, that we are choosing for 
the human race and for the survival of Earth.
    In one sense, both David and Goliath are within us, within 
each individual. So we have to decide whom we are going to 
serve, whom we are going to choose to serve. I do pray that 
each of us will choose well for the well-being of all of us.
    [The prepared statement of Ms. Gardener follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.057
    
    [GRAPHIC] [TIFF OMITTED] T1437.058
    
    [GRAPHIC] [TIFF OMITTED] T1437.059
    
    [GRAPHIC] [TIFF OMITTED] T1437.060
    
    [GRAPHIC] [TIFF OMITTED] T1437.061
    
    Mr. Burton. Thank you very much. Any information that you 
want to submit for the record, we can enter that into the 
record, even though you haven't had a chance. Maybe during 
questions and answers, we can cover some of that.
    Ms. Bedell-Logan.
    Ms. Bedell-Logan. Thank you, Mr. Chair, for this 
opportunity. In 1987, my sister was diagnosed with a Ewing's 
Sarcoma in the calf of her right leg. The protocol for Ewing's 
is amputation, chemotherapy, and radiation. This was a very 
aggressive cancer. Thankfully, the physicians found it in time. 
I remember her fear of having her leg amputated at 25 years 
old.
    We were in her room when an oncologist came in and said 
that there was a new experimental treatment for Ewing's Sarcoma 
where they would take a tube and slide it down through her 
vein, starting at the groin, and drop chemotherapy directly on 
her tumor. She was told that the likelihood of survival would 
not be changed, and that it very well may save her leg. On the 
strength of this, my sister opted for the new therapy.
    At the beginning of the fourth treatment that she had, the 
technician couldn't get the tube down through her groin any 
longer, and they took her down to sonogram and found a 
grapefruit-sized tumor right where they had been going down 
with the tube. Because of the obstruction of the tumor, my 
sister developed massive bilateral lymphedema in both legs, 
which is a swelling of the limbs due to the inability for 
lymphatic fluid to move in and out of the limb appropriately. 
This is a very debilitating and very painful process, and 
because of that pain, the surgeons cut incisions into my 
sister's thighs and put permanent drains in them to continue to 
drain the lymphatic fluid. Both of these sites became extremely 
infected, and my sister was put on large doses of morphine and 
antibiotics and was dead in 4 months.
    After her death, we found out that she had been a guinea 
pig. They had never done this procedure in this hospital 
before, and the physicians were not trained to perform the 
procedure appropriately. We have also found out that the worst 
thing you can do to a lymphedema patient is cut into them. This 
was never subjected to randomized control trials, and it's not 
used today as standard protocol.
    A month after my sister's death, I started working for 
Medicare. My goal was to get into the trenches of the 
healthcare system to find out what makes it tick. I received an 
excellent education from the Federal Government, and went to 
work after that for a very large family practice and urgent 
care center. I have seen the system work from the perspective 
of the patient, the payer, and the provider.
    I opened my company, Solutions in Integrative Medicine, 10 
years ago. My company provides billing and practice management, 
consulting, and education services for patients, providers, and 
insurance companies. We have been at the forefront of a change, 
actively advocating for patients whose insurance companies 
denied payment for effective, but unconventional services. One 
of the things that I have heard here today was talk about the 
uninsured. For those people who are insured, there is a very 
big problem with getting coverage for anything outside of 
opening a flower with a hammer.
    We have been instrumental in developing the administrative 
and clinical basis for coverage of a host of integrative 
therapies, often at greatly reduced cost. But this effort has 
been very tedious, which makes it difficult to make a large 
enough impact for global change. One of the problems with 
research is that the researchers sit in their ivory towers and 
do research, and come up with sometimes very good outcomes for 
randomized control trials, but we can't implement them at the 
insurance level. Sometimes it takes 10 years to get a 
randomized control trial accessible to patients.
    The U.S. Public Health Service estimates that 70 percent of 
the current healthcare budget is spent on the treatment of 
approximately 33 million chronically ill individuals. As the 
population ages, such conditions will consume an even larger 
portion of the national healthcare dollar. With this in mind, 
my company's vision is to change the perspective of the 
healthcare industry by providing professional education to 
insurance carriers, Medicare, physicians, and patient 
consumers.
    An example of this education is lymphedema. Twenty percent 
of all women who have breast cancer, axillary lymph node 
dissection, mastectomy, will have lymphedema. Those numbers are 
even higher for men with prostate cancer. These survivors have 
now contracted lymphedema, the three consequences of lymphedema 
are swelling, recurrent infections, and tumor formations, 
called lymphangeosarcoma, which is untreatable. The lymphedema 
patients who do not receive early intervention may develop 
elephantiasis, which can lead to amputation of a limb.
    Prompt treatment by specially trained lymphedema therapists 
who manually drain the engorged tissue has been shown to save 
limbs, save lives, and save healthcare dollars. The therapy is 
called combined decongestive therapy [CDT]. It has been a 
standard treatment in Europe for decades. But today, it is 
considered an experimental therapy in the United States, and is 
not a typically covered service. In the United States, our 
standard approach is to use expensive pumps that mechanically 
compress and decompress the affected limb, even though this 
therapy has been shown to have little benefit. In fact, it can 
press lymphatic fluid in the wrong direction and lead to a 
worsening of symptoms. For this reason, mechanical pumps for 
lymphedema have actually been banned in European countries.
    In the past 2 years, we have been able to begin educating 
the insurance industry about CDT. We have been able to obtain 
coverage for Medicare patients in Maine, New Hampshire, 
Vermont, Massachusetts, and Florida, as well as many commercial 
insurance beneficiaries all over the country. This type of 
education and common sense is extremely important when it comes 
to medicine. Unfortunately, the rest of the public receives 
conventional treatment, costing insurance companies millions of 
dollars each year.
    The treatment of lymphedema is just an example of the 
education and common sense needed in the insurance industry. 
The illusion is that the best medical practices are based on 
the result of randomized control trials. It was recently 
estimated that only 15 percent of medicine today has been 
subjected to randomized control trials. It is a sad fact that 
since there is little to be gained by drugs or medical 
equipment companies from the lymphedema treatment regimen I 
described earlier, little attention or marketing is focused on 
such common sense therapies. This is why healthcare cannot 
simply be left to the private sector. Too often the perverse 
incentives of our system lead to short-term thinking and 
pharmaceutical band-aids, rather than comprehensive chronic 
disease management. The result, strangely, is poor quality 
healthcare at a higher cost. Those who can break out of the 
system can afford to pay out of pocket. Integrative medicine is 
becoming rich people's medicine.
    We must put prevention of chronic illness in the hands of 
patients, treatment of chronic disease in the hands of 
integrative medicine teams, and acute and traumatic episodes in 
the hands of conventional medical providers.
    I will say in closing that my brother died of AIDS in 1994. 
He was diagnosed in 1980. He was on the television show, 48 
Hours, as one of the longest living AIDS patients in the 
country. They asked him how he did it. He said, ``I stayed away 
from conventional medicine. I used my conventional medicine 
doctors to help me decide what were the best alternative 
treatments for me, and did nothing but alternative therapies,'' 
and he lived 14 years with a very high quality of life, and 
died of Karposi Sarcoma. Thank you.
    [The prepared statement of Ms. Bedell-Logan follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.062
    
    [GRAPHIC] [TIFF OMITTED] T1437.063
    
    [GRAPHIC] [TIFF OMITTED] T1437.064
    
    [GRAPHIC] [TIFF OMITTED] T1437.065
    
    [GRAPHIC] [TIFF OMITTED] T1437.066
    
    [GRAPHIC] [TIFF OMITTED] T1437.067
    
    [GRAPHIC] [TIFF OMITTED] T1437.068
    
    [GRAPHIC] [TIFF OMITTED] T1437.069
    
    [GRAPHIC] [TIFF OMITTED] T1437.070
    
    Mr. Burton. Well, thank you very much. That last, not the 
last thing that you said, but the second-to-last thing that you 
talked about was very interesting. You are saying that in 
Europe, they have been using for lymphedema a different 
approach and it's been done for a good many years, and they 
have actually outlawed or done away with the pumps that are 
still being used as conventional medicine here in the United 
States?
    Ms. Bedell-Logan. That is correct.
    Mr. Burton. How do you account for that? You mentioned the 
pharmaceutical companies and some of the companies that produce 
these things. Do you think it is because of influences of these 
institutions?
    Ms. Bedell-Logan. I do. In 1997, which I have the report 
with me, Medicare spent on the East Coast alone, $13 million on 
pnuematic pumps. Most of those pumps are contraindicated. This 
is because when lymphatic fluid is simply pushed from the arm 
or the leg back into the body, it can create genital lymphedema 
in men and it can create lymphedema built up in the chest of 
women, which can create lymphangeosarcoma.
    What these specially trained therapists do, who are trained 
by the Vodder method, which was really born in Germany, is they 
manually through a massage technique open up the passages for 
the lymphatic fluid to move out of the arm appropriately, and 
then they bandage the patient with a compression bandage to 
stop the arm or leg from filling back up.
    Through this process, they are actually teaching the 
patients to take care of themselves at home. We don't want to 
have patients keep coming back and coming back for treatment 
because that is not cost-effective. But what we do want to do 
is make sure that these patients are completely self-sufficient 
in taking care of their own lymphedema. There is no cure for 
lymphedema, but we can certainly----
    Mr. Burton. Minimize it.
    Ms. Bedell-Logan. Minimize it, exactly.
    Mr. Burton. So through massage and through the bandaging?
    Ms. Bedell-Logan. Exactly. It is a very inexpensive 
treatment. They usually last anywhere between 2 to 4 weeks, 
depending on the severity of the case.
    Mr. Burton. Well, now some women are told by their doctors 
to wrap their arms or put a casing on their arm every day. Are 
you talking about that as well?
    Ms. Bedell-Logan. That can be helpful with minimal 
lymphedema. But when lymphedema becomes fibrotic and the limb 
gets very hard, the compression bandaging doesn't work unless 
those fibrosis are broken down through massage therapy.
    Mr. Burton. Through massage therapy.
    Ms. Bedell-Logan. Right.
    Mr. Burton. OK. Thank you.
    Ms. Zarycki, you were very critical of a lot of the 
conventional thinking. I presume you have done a lot of study 
on this. How did you come to all these conclusions that you 
came to? It's very interesting to me.
    Ms. Zarycki. I initially used conventional treatment. When 
I first started out, I wanted to take a chance and explore 
alternative options. I was told by a myriad of conventional 
doctors that I went to that basically it was OK if I did 
alternative and it was OK if I did some herbs and this and 
that, but if I really wanted to make an impact and to live, I 
should really go with conventional treatment and I should not 
wait, and if I wanted to do alternative, I could always do that 
later. That was the comment that I got.
    So instead of feeling like I had time to do more research, 
I felt like I really had to jump in and do the standard 
treatment. So in a sense, it would have been nice if both of 
those practices could have worked together as they do in other 
countries, as they do around the world, but not always in this 
country.
    Mr. Burton. From a personal standpoint, how do you account 
for those in Europe having more advanced treatments or optional 
treatments and the United States doesn't?
    Ms. Zarycki. I think they are more open to research than we 
are, and I think that they are putting funding in other areas 
and concentrating it in other areas, rather on prevention more 
so than we are. We are using machines for detection when we 
should be using ourselves and our own inner energies to 
understand and work with our immune systems.
    Mr. Burton. You don't think that the companies that 
manufacture pharmaceuticals and products are exerting any 
influence here in the United States, or you haven't had that 
experience?
    Ms. Zarycki. Well, I feel that is a large part of it, yes, 
in terms of the conventional side, sure. It is all tied 
together. But when they start getting the funding and when the 
smaller alternative organizations don't have a chance and they 
don't have the money to run any trials, clinical trials, 
randomized trials, that is what is happening in this country. 
So that is why we need more funding to go for those sorts of 
efforts.
    Mr. Burton. For alternative therapies?
    Ms. Zarycki. Yes.
    Mr. Burton. Dr. Gardener, you mentioned that you suffered a 
great deal because you weren't exposed to or aware of 
alternative therapies and you continue to suffer because of 
those. Do you want to elaborate?
    Can you pull the mic closer? I can't hear you.
    Ms. Gardener. No, that's not what I said.
    Mr. Burton. OK. I must have misunderstood.
    Ms. Gardener. Yes. I said it was not because I wasn't aware 
of them. I became aware of them. But it was because I was not--
conventional medicine, first of all, did not respect my right 
to make choices about myself, about my own situation. It 
started out, for example, I wanted to have a needle biopsy of 
the lump, and they wanted to take it out right away.
    Mr. Burton. In the form of a mastectomy?
    Ms. Gardener. No. No, not before they did a biopsy, no. Not 
before they did a biopsy.
    Mr. Burton. They didn't want to do a needle biopsy?
    Ms. Gardener. They didn't want to do a needle biopsy. They 
wanted to just remove the lump. I wanted to just have a piece 
of it taken out, to see if it might be cancerous. At that 
point, we had no idea. I was in very excellent health. I had 
never felt better, in a sense. I have heard other people say 
that too, just before they are diagnosed.
    Mr. Burton. OK. Thank you very much.
    Mrs. Mink.
    Mrs. Mink. Thank you very much. I certainly compliment all 
three of you for your very interesting and informative, 
provocative testimony. I know the time doesn't permit me to go 
into details of what you have to offer this committee and the 
Congress. I do have one or two points that I think need 
clarification.
    Carol Zarycki, on your page 4 of your testimony, you said 
that you were personally not planning to have mammogram 
followups, and went on to discus the reasons for that 
conclusion. You heard earlier that there is still overwhelming 
dependence on mammograms, and that it is one of the major 
educational thrusts that the medical field is promoting and all 
the people that are into breast cancer are promoting. I would 
like to hear some amplification on the reasons you have come 
to, your own personal conclusion.
    Ms. Zarycki. Well, I think mainly, using it as a personal 
experience, I suffered immense pain and suffering and that had 
continued on after a mammogram. That had nothing to do with 
just having a mammogram for having your breast analyzed. So the 
intense pain and the trauma and that sort of thing which can 
lead to a chronic condition, is something that women aren't 
really made aware of.
    The other thing is that I think as we know, not all 
mammograms detect all cancers. So in other words, it can be a 
hit or miss situation. So why should I not subject myself to 
more immune-enhancing procedures, such as daily breast massage, 
which is much more immune enhancing when used with a castor oil 
and almond oil base and protects the person, and we can start 
our daughters and our children and our nieces on these. It will 
protect them. It will protect their endocrine, their 
reproductive systems. If anything is going to protect us, we 
need to strengthen our bodies. So why tear ourselves apart with 
machines and biopsies and synthetic drugs when we should be 
building up our systems.
    Ms. Gardener. Could I speak to that also?
    Mrs. Mink. Yes, please.
    Ms. Gardener. Also we know that mammography is extremely 
ineffective for young women. Even for myself, I was not that 
young, but my lump which was very easy to feel, did not show up 
on a mammogram. Also, there is I know of one researcher at the 
University of North Carolina, who submitted a proposal, and 
this is an established researcher, well published, et cetera, 
who submitted a proposal to the Department of Defense to have 
funding to study sub-populations of women who were particularly 
susceptible to the radiation from mammograms. There is 
considerable evidence which was the support for this proposal, 
that there are these sub-populations in which breast cancer is 
increased when they are subjected to mammograms.
    There are alternatives such as thermography, which are 
completely non-invasive and completely harmless.
    Mrs. Mink. So what is your comment then on the lowering of 
the age to 40 years for suggested annual mammograms?
    Ms. Gardener. I don't plan to have any mammograms the rest 
of my life. I tell my daughter not to have them. I think they 
are dangerous and potentially very damaging. I think there are 
alternatives equally or more effective.
    Mrs. Mink. I thank you for those personal comments. I want 
to add to the record that I was astonished to find that nurses 
in one particular hospital that I am familiar with, all 
indicated to me that they were not going to take any of the 
mammograms, for precisely the reasons that you have indicated. 
So it strikes me that we really need to open up the dialog on 
this issue and not put such tremendous reliance on this one 
technique as the way to make sure that we have early diagnosis 
and early detection of breast cancer.
    Mrs. Mack certainly reemphasized your point, that 
notwithstanding the fact that she had had the mammogram and 
other clinical examinations, it was her own self examination 
that detected her cancer. So I think there is a great deal in 
your testimony that needs to set our thinking machines back on 
again in this very, very critical and vital area.
    Ms. Bedell-Logan, one point that disturbs me which some of 
my constituents point out to me frequently, is that when they 
participate in trials or other types of research endeavors, 
that they are not covered by their insurance, not covered by 
Medicare, not covered by any health plan, and that they have to 
assume the costs of these trials individually and personally. 
Is that your personal understanding to what happens in these 
medical trials?
    Ms. Bedell-Logan. Absolutely. What we have been doing with 
insurance companies to try to bring randomized control trials 
that are very positive to a point of coverage and accessibility 
for patients much sooner than they are right now, is by 
creating relationships with insurance companies at the 
integrative medicine center level, where we treat that 
particular treatment as a petri dish at that one place. So the 
insurance company covers that particular service for a period 
of time, and we measure the outcome of a number of patients 
using that particular service. The patients get reimbursed for 
what they do, what they get out of those services, and we look 
to see what the long-term outcomes are.
    But this is, as I said, one center at a time. It is tedious 
and very slow. But in the big picture, it can take up to 10 
years to get a randomized control trial accessible to patients. 
That is extremely frustrating. It's frustrating for 
researchers. A lot of the healthcare dollars that are going 
toward research, by the time they actually get accessible to 
patients, there is something better that can be used. So it's 
really, to a degree, a waste.
    Mrs. Mink. Mr. Chairman, that is really a very, very 
important point that we need to pursue why it is that our 
health policies established by Congress do not recognize the 
important contributions that these health trials, research 
trials are making to the ability of cures and other kinds of 
processes being developed. Unless they are covered by the 
medical insurance plans and health insurance plans, even our 
own Federal insurance plans, or Medicare, Medicaid, it is a 
real gap in our policy understanding.
    Mr. Burton. Why don't I work with you, and maybe we can 
draft some amendments to some of the healthcare legislation?
    Mrs. Mink. I would be very happy to. I believe there is a 
bill pending somewhere, but it needs to really be focused.
    Mr. Burton. I will have Beth check on that. But let me just 
say before I yield to my colleague, Mrs. Morella, my wife had a 
tumor in her breast for the estimated 7 to 8 years that was not 
picked up by mammograms. She picked it up by accident through 
physical examination. When she told me about it, I said to her, 
you really ought to have the doctor check it. She thought it 
was a fibrous tumor. She went to the doctor and almost walked 
out of the office without having it checked because she didn't 
think it was anything, and of course it was. Not only had she 
had it, but it had spread to her lymph nodes. So they miss 
about 15 percent of them. That is why you cannot look at a 
mammogram as a panacea, as these ladies have mentioned.
    Incidently, our next panel is going to talk about some 
alternative machines, I believe, that are being used in Europe 
through heat that will tell whether or not there's a cancer 
present. We ought to take a look at those too. So I hope you 
will stick around for the next panel.
    Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. I want to thank the 
three of you for putting a personal face on it and giving us 
your experiences. As I try to pull this together, it seems to 
me we are saying first of all, self examination is probably the 
best way of diagnosing or noting that there is a problem with 
breast cancer. I also, and I'm going to let you all comment on 
these observations, second, that there is not enough research 
that is being done on alternative therapies. Third, is there a 
problem that researchers who are doing research on medicine, 
maybe the conventional medicine, don't want to share? I mean do 
we have a problem of territoriality and possessiveness? I mean 
should there be some sharing? And then how do people find out 
about alternative therapies? Should they just experiment, read 
a book?
    Finally, do you see a role for diet, exercise, as we heard 
on the previous panel? What kind of a role does that play? I 
guess that gets you started, and then if I have more time, I 
will fire away with some more questions. I guess you could do 
it in any order that you want.
    Ms. Zarycki. I will start out. I will just say that I 
think, as you mentioned, I think sharing is very important. I 
have come up with the same question between the two 
communities, because I in some instances had to be a go-
between. I would ask my conventional doctor and tell him 
something that I was doing alternatively, that an alternative 
doctor would tell me, and they had worked at the same 
organization. I said well, why don't you two talk. He said, 
``No, no. Why don't you arrange a meeting for us. I don't have 
time to talk to him.'' So I would get comments like that.
    So my question was, do they really each just want to stay 
in their own little area of expertise, or do they really not 
know about each other's expertise? That was my question 
throughout the whole process. I think it may be half and half. 
I am not sure. So I think that's real important in terms of 
sharing. I mean it would be wonderful to share all the 
information together and come up with some better protocol.
    Mrs. Morella. It could also be difficult for a person to 
make a determination about what alternative therapy to use too.
    Ms. Zarycki. Well, when you are first diagnosed, you are 
kind of hit with everything. My whole learning in this has been 
if you want to find something, you will. So you have to trust 
yourself and in a sense, just in the beginning it's very hard, 
which obviously a lot of us kind of go to whatever seems to be 
the appropriate thing, which it is at the time. But eventually, 
you learn about a lot of different things, and then you learn 
specifically what works. Then you learn that there is a lot out 
there in terms of the alternative field, but it's not 
necessarily for breast or women's reproductive cancers. So 
while I see a lot of my friends doing a lot of different 
things, a lot of those things may not be as specific as we can 
be. So I feel my personal responsibility, and I do that with 
colleagues and friends, and I do that on a personal basis now, 
is to inform them as to what they really need to do, not to add 
negative information into their system, be it in the way of a 
supplement that they may not need or a lot of different things 
that are just thrown out there on the market as a marketing 
tool.
    Mrs. Morella. And diet? Do you want to comment?
    Ms. Zarycki. Diet is very important. I initially started 
out looking at a few different programs that basically 
eliminated fat, eliminated meats, eliminated dairy, a lot of 
that. Then I integrated that. I spoke to a few different noted 
practitioners and noted people who had successfully gotten rid 
of cancers. They all have very positive programs. What I found 
worked best for me is not to take just one specific program and 
say I am only going to stick with this program and I am never 
going to eat this or that, but to really combine them and to 
use them all and come up with my own program. That is what I 
teach others today.
    Mrs. Morella. I would like to give Dr. Gardener and Ms. 
Bedell-Logan an opportunity to quickly comment on it too.
    Ms. Gardener. You ask some great questions, and a lot of 
them very quickly. Self exam is best. OK, I have to really 
question that. First of all, early detection is too late. We 
need to get it way before that. Thermography actually, if we 
could start to use that, that would actually detect things much 
before you could even find your own tumor, find your own lump.
    In the 1960's, they were doing trials--and thermography 
came out of the space satellite age, Sputnik and all that. They 
were using it to be able to sense. Anyway, sorry. I got off 
into a tangent. But basically, they were finding a lot of false 
positives. So they said well, this isn't working, we need to 
find something else. We are getting too many. False positives 
are when you say the person has a problem and they don't. OK?
    What they did in a followup study of those that they had 
assessed was that they found that really those people did 
develop a significantly higher rate. They did develop breast 
cancer. So this was in effect a very early detector of cancer. 
Those are studies that were being done in conjunction with 
radiologists.
    Also, the problem that you said about researchers, not 
enough research. I have to say we need not more research, 
necessarily, but better research. We need to look at 
interactions. Right now we have rigorous trials, but they are 
very simplistic. The answer is not simplistic. I know about 
breast cancer, and we need to look at psychosocial factors, 
diet, environment, exposures, all of that sort of thing. So we 
need international sophisticated studies.
    The third thing, researchers don't want to share. Many 
people are not aware that a publicly funded, Government-funded 
study, that data that is collected is not available to any 
other researchers unless those researchers choose to share it 
with them. There are precedents now, an increasing number of 
research centers who are putting their data on the web. It is 
called public use data bases. That is something that can help 
us to break down the real barriers to progress that exist now 
because of political turf issues and wanting results to come 
out the way you want them to come out, basically. It is 
research but it's not science. Then the role of diet and 
exercise--lifestyle is critical.
    Ms. Bedell-Logan. Let me take 30 seconds, if that's OK.
    Mr. Burton. Sure, go ahead.
    Ms. Bedell-Logan. Self-care and diet, in my opinion, only 
works for those people who really believe they are going to get 
cancer. Most people don't. So it takes a wake-up call to stop 
eating sugar and fat and all of that.
    Second, the research needs to be more pointed and 
integrated with complementary and alternative medicines, so 
that we get all sides of the research instead of just one. I 
believe we have disease in this country called academic 
constipation. I think we need a legislative colonic to change 
that. [Laughter.]
    Third, I think we need to heal the business of healing and 
really get information out to the public as to what is going on 
in this country.
    Mr. Burton. Legislative colonic? Well, you know, you hear 
everything up here after a while.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I, as I 
was sitting here, I was trying to listen very carefully to the 
last two responses. I guess when I sit here and I think about 
this being the most powerful country in the world, and we're 
able to do all kinds of things, and here you are here before 
this Congress of the United States and we can't solve all 
problems, but certainly we are here to solve problems and lift 
up the people of this great country.
    I was just wondering, and sort of piggy back on what you 
just answered, but a little bit more specific. Sometimes I do 
believe that there is a disconnect between the public and the 
Congress. Sometimes I think we don't get it. I speak for all of 
us. At some point and on different issues, we don't get it. You 
all have been kind enough to come here and open your lives to 
us. Believe it or not, open your lives to America, because C-
SPAN is covering this. So this is your moment.
    What do you want us to do? What would you like to see us do 
as the folks who represent you, the 435 of us on this side and 
the 100 in the Senate? I mean what do you want to see us do? 
And do you think we get it? Ms. Bedell-Logan.
    Ms. Bedell-Logan. First, I would like to see the Access to 
Medical Treatment Act looked at a little more closely. I think 
it is an extremely important bill. I think it needs some 
attention. Raising the Office of Alternative Medicine to NCCAM 
was an extremely smart move on the part of the legislation.
    I think that you are right. There is definitely a 
disconnect between the people and Congress. So many people just 
don't know what happens here, but they do know what happens at 
home. What was very interesting in my personal experience is 
that my sister, who had a very treatable cancer, was dead in 6 
months, and my brother who had a terminal illness, was dead in 
14 years. We need to get that kind of information out to 
patients.
    One of the worst things and one of the best things that has 
happened recently is the Internet. Unfortunately, it can be a 
very scary thing to surf the Internet about cancer treatments 
when a patient has no idea what of it is bunk and what of it is 
actually real. So I think that to a degree, people are getting 
scared to death, literally. In order to really change that, we 
have to start to take conventional medicine and move it into an 
area that allows patient access to the types of things that 
will soothe the soul as well as the physical body. We don't 
have those things available to us right now. In every single 
oncology center, there should be an acupuncturist who controls 
nausea, instead of giving people contra-indicated medications. 
There should be a massage therapist in every emergency room, to 
be dealing with migraine headaches. All of these things, we 
tend to open flowers with a hammer, as I said earlier. Adverse 
drug reactions are a huge part of that.
    What I believe that is going to start with is things like 
the Access to Medical Treatment Act, which I hope is very much 
supported in this room. Thank you.
    Mr. Burton. Would the gentleman yield, real briefly?
    Mr. Cummings. Certainly.
    Mr. Burton. Let me just say that I met with Congressman 
DeFazio this morning--yesterday. We are working to get the 
Access to Medical Treatment Act in proper form. We will be 
contacting all of you. If you are so inclined, we would love to 
have you as cosponsors. He will be the primary sponsor. He is 
the one who came up with the idea. It is a Democrat sponsor. I 
will be a cosponsor, and we will see if we can't get enough 
Members to move that thing through.
    Mr. Cummings. I am so inclined, Mr. Chairman. I think that, 
just to say to you, I think that's wonderful that we can move 
in a bipartisan manner.
    That is what I want you all to understand, that you put a 
face on what we do here. I mean sometimes things happen, 
something happens over here, something happens in Iowa, 
something happens in Baltimore, something happens in Nevada, 
and all these things are happening and here we have an 
opportunity. You represent so many people who are in pain. That 
is why your testimony here is so very, very important. We just 
want you to understand that we hear you and we want to connect. 
We want to get it. So I want to thank you.
    May I just ask one more question? I would like to have Ms. 
Zarycki, could you answer that same question? I think the 
doctor had pretty much answered the last time.
    Ms. Zarycki. Sure.
    Mr. Cummings. What would you like to see us do as a 
Congress?
    Ms. Zarycki. I think most importantly, since in this 
country, women faced with cancers initially go to conventional 
doctors and for conventional treatment, I would just like them 
to be aware of all the options and to let people, and let us 
know as patients what options are out there in terms of other 
things that they may not be promoting, but at least make us 
aware of them. I think that is all we're asking, so that we can 
each make our own choices, because it really is an individual 
process for each of us.
    Mr. Cummings. So I take it if you don't--somebody, I mean 
you hear this all the time, Mr. Chairman, the statement that 
the best patient is the well-informed patient, the one who goes 
out there and learns as much about his or her illness and 
whatever, so that they can ask the right questions and I guess 
do the right things. I guess that's another thing that the 
American people have to do. Would you all agree with that?
    Ms. Bedell-Logan. I don't really, because I have heard many 
physicians say to me that the informed patients are the ones 
who cause the most trouble, so to speak. What happens in many 
cases is that patients come in after reading off the Internet 
about acupuncture and herbs and all of this, and their doctors 
say, ``We don't know anything about that. That's not 
efficacious.'' My sister had a bottle of garlic on her 
nightstand, and the oncologist walked in the room and threw it 
in the trash and said, ``We don't want to give you false hopes. 
Garlic isn't going to help you.''
    What we need is a healing between the complementary, 
alternative medicine community and the conventional medicine 
community so that each one of those sectors of medicine come 
together and know what the other person is doing. There is 
nothing more frustrating than a physician getting caught with 
his shorts down by not knowing what acupuncture does. The 
physicians get very frustrated, and they say it doesn't work 
because they don't understand it. We need to change our medical 
education, which is a huge part of this process as well.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Cummings.
    The National Cancer Institute gets $2.7 billion, and less 
than about 1 percent of that is used on alternative therapy 
research. I think what we need to do is get them to realize 
that there is a strong sentiment in the hinterlands that we 
take a hard look at these alternative therapies, and maybe more 
money should be taken from that budget for alternative therapy 
research as well as conventional research.
    So thank you, ladies, very, very much. We really appreciate 
your testimony.
    We will now go to our last panel. I think this will be a 
very enlightening panel as well. We have Dr. Edward Trimble 
with the National Cancer Institute; Daniel Beilin, from Aptos, 
CA. I have never heard of that one before, Doctor; Susan 
Silver, from George Washington University Integrative Medicine 
Center; and James Gordon, M.D., Center for the Mind Body 
Medicine out of Washington, DC.
    Thank you all for being so patient. Dr. Gordon has to leave 
very shortly, so Dr. Gordon, we'll start with you.

    STATEMENTS OF JAMES GORDON, M.D., CENTER FOR MIND BODY 
   MEDICINE, WASHINGTON, DC; SUSAN SILVER, GEORGE WASHINGTON 
UNIVERSITY INTEGRATIVE MEDICAL CENTER; DANIEL BEILIN, OMD, LAC, 
    APTOS, CA; EDWARD TRIMBLE, M.D., HEAD, SURGERY SECTION, 
  DIVISION OF CANCER TREATMENT AND DIAGNOSIS, NATIONAL CANCER 
INSTITUTE; AND JEFFREY WHITE, DIRECTOR, OFFICE OF COMPLEMENTARY 
      AND ALTERNATIVE MEDICINE, NATIONAL CANCER INSTITUTE

    Dr. Gordon. Thank you very much, Mr. Chairman. I am really 
glad to be here. I appreciate the Members who are here. It has 
been wonderful listening to the presentations and listening to 
the dialog and seeing the composition of these panels, because 
what we have here is the kind of integration that we are 
talking about and that you are talking about. We have on this 
panel, we have conventional physicians, people who work with 
complementary and alternative therapies, we have patients, and 
patient advocates, and people who are using healing systems of 
other cultures. I think it is exactly this kind of integration 
that we need in our healthcare system.
    I am a physician. I work here in Washington, DC. I have a 
private practice. I also for the last 9 years, I have founded 
and have led a non-profit called the Center for Mind Body 
Medicine. I was for 10 years before that, a research 
psychiatrist at the National Institute of Mental Health. I was 
the first chair of the Advisory Council to NIH's Office of 
Alternative Medicine.
    I have been interested in therapies other than conventional 
therapies for 35 years. In fact, I was reminiscing with Michio 
Kushi that I met him some 35 years ago when I was a medical 
student at Harvard and his teacher, George Osawa, had come over 
to this country and was bringing macrobiotics here. So this is 
a movement with some history, and I have some history with this 
movement.
    I want to focus today on what I hope is one specific answer 
to some of the questions that are being raised, which is the 
comprehensive cancer care conference integrating complementary 
and alternative therapies that you mentioned when you 
introduced me at the beginning, which is a conference that was 
created by the Center for Mind Body Medicine, but is now 
cosponsored by the National Cancer Institute and by the 
National Center for Complementary and Alternative Medicine, as 
well as the University of Texas.
    This conference is particularly relevant here. Incidently, 
I would like to invite anybody who would like to come to please 
come to this conference. We are in pre-conference workshops 
now. The conference begins tomorrow morning at 9 at the Hyatt 
Regency in Crystal City. We welcome everybody, whether or not 
they can afford the full fee. We have generous scholarships and 
no one is ever turned away from any of our activities for lack 
of money. So I want to invite you to participate in this.
    This conference was in a very real sense created to answer 
some of the questions that have been raised here, and questions 
that have been raised particularly by women. The questions are, 
are there any things other than conventional cancer care that I 
can use for my treatment, complementary or alternative? How do 
I know if any of them work? How do I know if they are safe? How 
do I integrate them with complementary and alternative care? 
Who do I find who knows something about these things? How can I 
inform my oncologist about them? And how can I get them paid 
for?
    So we created this conference last year and brought 
together about 120 presenters from all over the world. This 
year we have about 130 presenters. What we are doing is trying 
to answer these questions in a thoughtful way. We are having 
people like Michio Kushi. In fact, the study that you heard 
about on macrobiotic treatment of cancer, an early phase of 
that study was presented last year. We are having the people 
who are doing the most interesting work in complementary and 
alternative therapies present their work to the pillars of the 
American cancer establishment who are open-minded, who are 
interested in critiquing the work, interested in creating a 
dialog, and interested in developing the most effective kind of 
cancer care.
    I particularly want to acknowledge the National Cancer 
Institute as well as the National Center for Complementary and 
Alternative Medicine, and Dr. Klausner, who at one of your 
hearings actually came up to me and said, ``We love the 
conference you are doing. Is there anything we can do?'' I said 
yes, you can cosponsor it and help support it. He said great. 
Dr. Wittis, his deputy director, who participated with us last 
year, and Dr. Jeffrey White, who is here, who has developed a 
whole series of panels for this year's conference. We hope we 
will continue to collaborate with them on this conference in 
the years ahead.
    What we have done is both to have the material presented 
and critiqued at the conference. If you look through the 
program, you will see the whole variety of plenary sessions and 
panels that are presented. Then we have also put this 
information, the presentations together with the critiques, up 
on our website, which is www.cmbm.org, www.cmbm.org. So the 
information is there.
    I think the kind of information that the last panelists 
were looking for, and that I think everybody with cancer is 
looking for, is let me see the best that is being done around 
the world, not only in the United States, but in Germany and 
China and Japan and South America. Let me see it presented, and 
let me see some people who really know their stuff 
scientifically, but who are open-minded, take a look at this 
literature and tell me what they think, and then let me make up 
my own mind.
    I say this conference began with questions about these 
therapies for cancer, and that those questions were mostly 
asked by women. I am talking of course about cancers that women 
have, but I am also talking about cancers in other members of 
the family. The Office of Alternative Medicine, 60 to 70 
percent of the calls the office receives were about questions 
about cancer. Most of those calls were from women. In my 
practice, at our center, it's women not only asking about 
themselves, but asking about their husbands and parents and 
children. So women are the ones who are doing much of the 
investigation. It is their questions we are trying to answer.
    Let me just share with you three broad areas where I think 
it is very important to make advances and to make changes, and 
then I will be happy to answer some questions before I have to 
leave to go back and give a talk there. The first has to do 
with this issue of sharing knowledge. We have knowledge 
available on our website. The National Cancer Institute is 
beginning to provide some of that knowledge as well. We need to 
make knowledge, the best possible information about these 
complementary and alternative therapies available, just as we 
need to make the best possible information about conventional 
therapies available.
    Second or as part of that issue of sharing knowledge, I 
spoke with Dr. Klausner about a year ago and I want to continue 
speaking with him about training oncologists, physicians, 
nurses, oncology nurses to provide this kind of counseling, to 
provide enough time, enough emotional support, enough 
thoughtful guidance, and enough information about complementary 
and alternative therapies so that each person who comes who has 
cancer can have that kind of guidance. This is crucial. I think 
it is a missing element. People often feel pressured into doing 
one or another kind of therapy. I think there needs to be a 
time for reflection. We are very eager at the Center for Mind 
Body Medicine to create a training program for these 
counselors. We do it at our center. We believe it needs to be 
done at a national level so that every patient with cancer 
should have this kind of informed, sensitive counselor 
available for a significant period of time. When I work with 
people with cancer, I spend about an hour and a half to 2 hours 
with them, discussing their options, discussing their feelings 
about both conventional and alternative treatment. So that's 
No. 1, knowledge and how to share it.
    No. 2 is the creation of healing partnerships. Again, this 
is a theme that I have heard this morning. This requires that 
we spend more time with patients, and especially that 
oncologists spend more time with patients. I know a number of 
oncologists in town. There are oncologists whom every one of my 
patients loves and loves to go see, and there are oncologists 
whom they dread seeing. The characteristics of the ones whom 
they love to see are that these are generally extremely kind 
people, they are people who take time, they are people who 
listen to questions, and they are people who if they tend to 
have preconceptions or areas of ignorance, they say ``I don't 
know. I would really like to find out more.'' Or ``I may be a 
little prejudiced. Maybe you could help me see this more 
clearly, or who should I talk to.''
    So I think this is crucial, that from the side of the 
practitioners, and of course not just oncologists, all of us 
who are physicians, I think that we need to share information. 
This needs to be encouraged, that all physicians should be 
sharing the best possible information about all the treatments 
they do, whether it is for cancer or any other condition, 
whether it's conventional, complementary, or alternative.
    I also think that it is important that we encourage, and in 
this instance, women particularly. Women have been the leaders 
in the movement for self care and in the movement for creating 
healing partnerships with their physicians. They are the ones 
who first said, ``What's going on down there, you tell me. I'm 
not ignorant. I want to know what's happening. I want to take 
part in my care.'' I think we need to encourage this, not only 
at the clinical level, but at the national level. I think it is 
very important, not only that people who are expert in 
complementary and alternative therapies, but that women like 
the panelists who are on the last panel, be part of the 
advisory committees to the different institutes and centers at 
NIH.
    Finally, or not finally, next to last, coming to the issue 
of research. Research is crucial, but there need to be new and 
more imaginative models of research. Coming out of last year's 
cancer conference, Nicholas Gonzales presented a very 
interesting, very promising therapy for the treatment of 
pancreatic cancer, a comprehensive therapy. NCI responded and 
agreed to fund, and is funding a clinical trial of this 
therapy, a very comprehensive alternative therapy which is 
being funded by NCI, and studied by Columbia University. This 
is the kind of partnership we need. We need to expand from 
studying single modalities to looking at comprehensive 
approaches, and we also need to understand that each person who 
has cancer is an individual, and that an approach that may work 
for one may not work for others. We need to design research to 
accommodate that individuality.
    We also need to understand that there is a great deal, and 
this was brought out in the first panel, that all of us, and 
anyone who has cancer can do on her or his own behalf, and we 
need to study those therapies and put much more of an emphasis 
and much more of a financial emphasis on some of those mind 
body therapies, changes in attitude, meditation, relaxation, 
group support, nutrition, exercise, and to really see what is 
possible for people to do on their own behalf.
    Finally, I would like to echo the suggestion, and I know 
your strong feeling, that it is time to pass the Access to 
Medical Treatment Act. It is time to open up the arena of 
treatment to all therapies that are offered by responsible 
people, and to understand that people can assume in partnership 
with a variety of healers, responsibility for their own care. 
Thank you very much.
    Mr. Burton. Thank you. We will push very hard to get that 
passed. We'll try to get as many cosponsors as possible.
    We are going to have a vote. I would like to have one more 
of our witnesses speak. Ms. Silver, would you like to go ahead 
and speak? Then we will run and vote, and we will come right 
back and try to not have any more unnecessary demands on your 
time.
    Dr. Gordon. I am going to have to go, though, when you 
break for the vote. I am sorry I do, but I have to speak at 3 
in Virginia.
    Mr. Burton. That's OK, Dr. Gordon. I am going to try to see 
you tomorrow anyhow, so we'll talk further.
    Dr. Gordon. Terrific. Thank you.
    Mr. Burton. Ms. Silver.
    Ms. Silver. Thank you for the opportunity to address the 
committee today. All of us who work in the field of 
complementary and alternative medicine are grateful for the 
visibility and the validation that you bring to the field by 
holding this hearing. The Center for Integrative Medicine is a 
division of the Medical Faculty Associates of the George 
Washington University Medical Center. Our program includes 
research, education, and clinical services. Patient care began 
in April 1998, and from the outset, we included a program for 
patients with cancer. That program is called the Quality of 
Life program, and it serves as an adjunct to conventional 
cancer treatment.
    We share the committee's interest in research and the 
current level of knowledge about complementary and alternative 
medicine and its effectiveness in people with cancer. We have 
submitted two research proposals to NIH to investigate the use 
of reiki and guided imagery by patients with breast cancer and 
those undergoing radiation. As we all know, research is in its 
early stages. Thanks to the Center for Complementary and 
Alternative Medicine at NIH, the pace at which we receive 
documentation of complementary and alternative medicine's 
effectiveness will increase as researchers are supported in 
investigating these vital questions.
    At the Center for Integrative Medicine, we are as anxious 
as anyone for those results. In the meantime though, we ask 
whether we can proceed with unproven, and note that I said 
unproven rather than disproven, modalities to assist cancer 
patients. Our answer is a resounding yes. We have asked 
ourselves this fundamental question: How can we enhance the 
quality of life of the person as patient?
    Traditionally, on assuming the role of patient, a person 
has willingly surrendered quality of life, her sense of 
orientation and personal control in exchange for a cure. But we 
are beginning to suspect that surrender may be self defeating. 
We would suggest that successful medical outcomes are 
diminished when the patient lacks control, information, and 
support. Conversely, if these inputs are maximized, the patient 
may recover more quickly and completely, and have a higher 
quality of life, whatever the ultimate outcome.
    Most cancer patients say that from the moment of their 
diagnosis, everything in life is changed. A life that was going 
on routinely is suddenly out of control. The entire focus on 
the what if's of cancer treatment and its outcome.
    The Quality of Life program of the Center for Integrative 
Medicine can assist the patient throughout the course of her 
illness. At whatever stage of the illness the relationship with 
the center is initiated, we help determine and meet the 
patient's needs and goals in a comprehensive way. For patients 
newly diagnosed and awaiting treatment, we offer stress 
reduction with a focus on personal control and empowerment, 
immune system enhancement to help combat the disease, relief 
from symptoms caused by anxiety or depression as appetite loss, 
nausea, or sleeplessness.
    For patients undergoing aggressive curative treatment, we 
offer relief from side effects of treatments, such as nausea or 
post-operative pain, immune system enhancement to help maximize 
the effectiveness of the treatment, relaxation and stress 
reduction to help restore the mind and body between enervating 
treatments.
    For patients in remission, we offer stress reduction during 
periods of watchful waiting, rebuilding of stamina and 
flexibility following medical and surgical treatments, and 
resumption of healthful diet and nutrition, with added emphasis 
on cancer prevention.
    For patients who experience a relapse, all of the services 
and objectives of the pre-treatment and treatment phase program 
can be resumed with even greater intensity. For patients with 
illnesses not responsive to curative treatment, we offer 
control of pain and symptoms of a progressive illness, 
mobilization of the powers of the mind to maximize quality of 
life, and reduction of stress to allow for end-of-life planning 
and resolution. Overall, the Center for Integrative Medicine 
aims to restore a sense of control and well-being, and offer 
the patient the freedoms to heal physically, emotionally, and 
spiritually.
    Let me offer just two examples of cases in which we are 
treating women with cancer. The first is a patient with 
recurrent endometrial cancer. Immediately following surgery, 
she was referred to our medical center for radiation. Thanks to 
an active partnership with the Division of Radiation Oncology, 
the Center for Integrative Medicine was called into the case as 
the patient came for her initial consultation. Along with vital 
information about her radiation treatment, the patient was 
given information about the center and the role of 
complementary medicine in easing her way through the course of 
illness. She was given a meditation tape focused on breathing 
and relaxation exercises that incorporate the details of the 
radiation experience.
    In the following weeks, the patient participated in 
meditation and reiki and used both skills to reduce stress 
during treatment and to assist her in sleeping through the 
night. As the radiation progressed, side effects became 
extremely bothersome. Stomach and intestinal upset were 
frequent. But a combination of acupuncture and nutritional 
guidance got them under control.
    As the radiation neared completion, the patient began 
focusing on the future. She requested further nutrition 
counseling, both to help restore her energy following 
treatment, and on a larger scale, sought advice on a diet that 
would do most to prevent a recurrence of her cancer. After 28 
successive days of radiation therapy, the patient suddenly felt 
apprehensive about what to do without it. She had grown 
attached to her radiation team and to the routine of daily 
radiation appointments. But she found comfort and support in 
the relationships that she had formed with the providers in the 
Center for Integrative Medicine. She continues to practice the 
modalities that she learned and is looking forward to adding 
yoga to her routine to help build stamina and regain 
flexibility. She intends to check in with her complementary 
medicine team indefinitely for encouragement and renewal.
    The second patient is a young woman with advanced breast 
cancer. At the time of diagnosis, she was offered several 
treatment options, and chose the most aggressive. She is 
currently undergoing high dose chemotherapy. Before her first 
treatment, the patient learned reiki and guided imagery. As she 
faced her initial dose of chemotherapy, she used both 
modalities actively to reduce her fear and the anticipatory 
side effects that she experienced. Today, as she continues in 
treatment, the center's reiki provider meets her at the 
oncology clinic and practices reiki with her as the medication 
is administered. Nausea and vomiting seemed inevitable side 
effects of her treatment, but the patient has found substantial 
relief with acupuncture.
    This patient's prognosis is guarded. However, she has 
expressed confidence in the center's ability to maximize her 
wellness and comfort. She has learned skills for stress 
reduction and relaxation that she will utilize throughout her 
life. Whatever the outcome, feels empowered to maintain control 
of her life.
    Let me say again that the Center for Integrative Medicine 
offers an adjunctive program of care for women with cancer. We 
are keenly aware of the remarkable advances in oncology, 
through medicine, surgery, and radiation. We are in partnership 
with specialists who practice those techniques. But the goal 
and the value of our program is this. We change the experience 
of the cancer patient by placing her at the center of care and 
treating the whole person, mind, body and spirit.
    Our patients convince us daily of the benefits that the 
center offers. But what of the patients we never see? The 
Center for Integrative Medicine operates on a fee-for-service 
basis, and our patients rarely have insurance coverage for our 
treatments. Consequently, our program is accessible only to 
those with the greatest financial wherewithal. Personally, I 
find it heart breaking to tell callers who are filled with 
hope, and sometimes desperation, that our services are out of 
their reach. That is an every day occurrence. I hasten to add 
that our providers offer a remarkable amount of pro bono care. 
But the reality remains that to be viable, the center must 
charge for its services.
    The issue for payment for complementary and alternative 
medicine is inextricably linked to research and policy. Only 
when research demonstrates the efficacy and cost benefit of 
alternative medicine will it be incorporated into mainstream 
third party coverage. We need your leadership to harness the 
demand of millions of Americans to press for pure science, 
pilot programs, and demonstration projects that will assess the 
real value of complementary and alternative medicine. We need 
mandated benefits that will expand the scope of private and 
public insurance policies to even the most basic complementary 
modalities. We need Medicare to act as a model by including 
alternative medicine in its coverage. The Medical Nutrition 
Therapy Act of 1999, H.R. 1187, would mandate nutrition 
counseling as a core benefit of Medicare for the purpose of 
disease management.
    Mr. Burton. Pardon me, Ms. Silver. We have a vote on the 
floor. Would you mind----
    Ms. Silver. I have just about four more sentences.
    Mr. Burton. All right. Go ahead.
    Ms. Silver. That bill is languishing, pending major reform 
of Medicare.
    Mr. Burton. And the bill number on that again is?
    Ms. Silver. The House version is H.R. 1187. On the Senate 
side, it's S. 660.
    Mr. Burton. OK.
    Ms. Silver. As we meet here today, 60 million Americans are 
utilizing complementary and alternative medicine. A substantial 
number of them are women with cancer. As the Center for 
Integrative Medicine treats our small share, we are guided by 
the principle that wellness during illness is not a 
contradiction in terms.
    Again, I would like to thank the committee for the 
opportunity to address you today. In a larger sense, I want to 
thank you on behalf of those who so urgently need our help.
    [The prepared statement of Ms. Silver follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.071
    
    [GRAPHIC] [TIFF OMITTED] T1437.072
    
    [GRAPHIC] [TIFF OMITTED] T1437.073
    
    [GRAPHIC] [TIFF OMITTED] T1437.074
    
    [GRAPHIC] [TIFF OMITTED] T1437.075
    
    Mr. Burton. Thank you, Ms. Silver.
    Dr. Beilin and Dr. Trimble, we will be back in just a few 
minutes. We have one vote on the floor. I am anxious to hear 
from both of you, so we will be right back.
    [Recess.]
    Mr. Burton. I want to first of all thank you for your 
patience. This has been a very, very long day. I am a little 
disappointed that what you are going to tell us is probably 
very, very significant and we didn't have you on earlier in the 
program. Nevertheless, I can assure you that what you tell us 
today will be taken to heart and used, and we will talk to the 
various agencies about it.
    So let's start, I guess go down the list with you, Dr. 
Beilin.
    Dr. Beilin. OK. Thank you very much, Mr. Chairman, and 
members of the committee. Thank you for the opportunity to be 
here today. My name is Dr. Dan Beilin, OMD, LAc. I have a 
doctorate in herbal and oriental medicine, and hold a degree in 
physiology, as I was physiologist at the UCLA Department of 
Gastroenterology. I am in private practice in California in 
European complementary medicine and oriental medicine. I have 
been working in cooperation with a group of doctors and a 
radiologist, who have been measuring changes in the skin and 
the nervous system of patients who develop devastating 
diseases, such as cancer and autoimmune disorders. We have 
found a high correspondence between the nervous system's 
ability to control metabolism and circulation, also referred to 
as thermoregulation or heat regulation, and the growth of 
tumors and other degenerative disorders.
    In complementary medicine, we try to step back one step and 
view the patient in terms of the interactions between the 
internal organs and tissues. Traditional orthodox medicine too 
often focuses on a single organ of the body, when in reality, 
many organs are involved in a subtle or not-so-subtle manner in 
the advancement of a particular disease state. Yet when we look 
at the body as a collection of systems, each interrelated with 
the others, we can actually begin to search for the cause of 
illness. Fortunately, I believe that we are approaching a 
technology which will provide a bird's eye view of the body as 
a whole, providing information about multiple organ expression 
and painting a picture of biological processes that may bring 
us closer to finding the cause of such diseases as breast 
cancer.
    One technology is called regulation thermography, developed 
in Germany and legally marketed in the United States now. 
Regulation thermography offers a serious addition to the 
arsenal of physicians evaluating patients at risk of cancer or 
cancer recurrence. It works by taking temperature measurements 
of neurologically controlled points on the skin often above the 
organ in question, stressing the body with cool air, and then 
taking a second measurement of the same points. Computer 
software analyzes the response of the points and their 
adaptation to the rapid temperature change. More than 25 years 
of experience has demonstrated a relationship between such 
responses in organ pathology. The test is non-invasive, 
painless, and the machine is small enough to fit into a 
briefcase.
    Regulation thermography is not intended to be a substitute 
for mammography or other methods of cancer detection. What it 
does do is provide information to the practitioner about the 
environment in the body that could be contributing to the 
cancer growth, allowing the practitioner to design a treatment 
strategy utilizing the principles of alternative and 
complementary medicine, staying within the constraints of good 
science.
    I prepared a few slides that better illustrate the theory 
behind regulation thermography and its contribution to cancer 
detection and treatment. So if you will check the monitors, the 
first slide is the idea of terrain versus tumor. Here, we see a 
large box, which represents healthy cells and fluids of the 
body. The small box represents a tumor which has grown for some 
reason and has now been diagnosed say by a mammogram. Medicine 
as of 1999, today, has given special attention to the 
destruction of the tumor, whether by surgery, chemotherapy, or 
radiation, but has neglected the internal environment that has 
contributed to the development of that tumor. Until recently, 
there have not been scientifically verifiable methods for 
measuring the factors in that tumor terrain. But this is 
critical if we are to develop therapeutic approaches aimed at 
treating the whole patient, not simply mounting a frontal 
attack on the tumor alone.
    The second slide illustrates how we are internally wired, 
that the internal organs, such as the stomach, pancreas, liver 
or prostate, are capable of talking to the nervous system by 
taking precise measurements of skin temperature as we stress 
the body, similar to a stress ECG by the cardiologist, we can 
see how the organs and other tissues of the body behave around 
that stress. Changes in the way the body behaves to stress can 
indicate the possible presences of pathologies or pre-
pathologies. German and Swiss researchers have gathered data 
over the last 20 years which have established normal values for 
stress reactivity in every skin region. Furthermore, many 
disease states have been documented for their patterns of skin 
dysfunction over the whole body.
    Mr. Chairman, this is a method that is objective, 
reproducible, and very serious consideration for inclusion into 
every new complementary medicine hospital and program. It 
measures the pattern of response to stress which takes place in 
the terrain of the body. The information gathered can act as a 
marker test for lifestyle change prescription effect and 
preventive measures that have the potential to cut the 
increasing cost of cancer care.
    In slide three, we see a thermogram above done with this 
new technology. Above, a normal thermogram, and below, a 
chaotic thermogram. You can see how there is a complete 
disruption of a certain pattern. The top one looking 
homogeneous, the next looks mixed up, showing a lack of 
regulation, of homeostasis or balance by the organs and nervous 
system. This is the whole body, with data taken from 80 points.
    In the next slide, this is a study done by Professor Wagner 
in Germany. We see this, that 63 patients on the left bar with 
confirmed breast cancer by pathology, were sent to blind 
doctors doing clinical exams alone, with mammography added, and 
then with regulation thermography in conjunction with 
mammography. Interestingly, a higher percentage of tumors were 
identified using regulation thermography in conjunction with 
mammography than with mammography alone.
    This and other studies conducted in Europe demonstrate that 
dynamic thermography can be a valuable tool in helping to 
diagnose the presence of occult disease. In fact, some studies 
suggest that in some cases, regulation thermography offers a 
viable alternative to mammography. If proven true, this would 
particularly be useful in geographic regions lacking 
mammography facilities or as a preliminary screening device for 
the family physician. In addition, studies suggest that 
regulation thermography may be able to detect the changes in 
the body that may preface the development of cancer. With 
regard to breast cancer and other types of tumors, research 
indicates that most tumors have taken at least 5 years from 
their inception to develop into a viewable size. What has 
occurred to the body's immune mechanisms during those years 
which creates the pre-tumor and then tumor? What do we know 
about the fertility of our inner soil, if you will, which 
nourishes or depletes the development of tumors? For these 
reasons, I strongly urge consideration for funding for studies 
in the United States.
    On the last slide, of course breast cancer is not the only 
disease for which this technology may be utilized. Here is a 
statistical average of three patients with a progression of 
PSAs used as a prostate marker, and their corresponding 
thermogram of the prostate points taken by this method. Note 
the correspondence of a higher PSA, say on the left is 12.53, 
to the higher degree of rigidity of response seen in the 
thermogram are quite evident. When we see the lowering of the 
PSA, we see a better thermograph coming out as a result.
    The point I make is that complementary medicine is not only 
comprised of non-scientifically based methods. It has in the 
past been shunned from the mainstream, but the effect has been 
to throw the baby out with the bath water. In recent years, 
Congress has taken important steps to address this issue, 
primarily through the creation of the Center for Alternative 
Medicine at the NIH, and the provision of increased funding for 
research in alternative medicine. Many leading teaching 
hospitals and other medical centers have established programs 
focused on researching and using alternative and complementary 
therapy. One of the roles for the Center of Alternative 
Medicine should be to act to bring these integrative centers 
together for advanced research on key technology, such as 
regulation thermography, and to provide additional funding for 
research so that the valuable alternative therapies will assume 
their proper place within the entire healthcare system.
    Finally in closing, I also recognize that Congress this 
year will be dealing with the critical issue of patient rights 
with regard to Government funded and private healthcare plans. 
Unfortunately, alternative medicine has been neglected in the 
coverage decisionmaking of many healthcare programs. I ask you 
while considering this critical legislation, to keep in mind 
the proven benefits of alternative medicine, and the desires of 
a significant portion of the American public to have access to 
such treatment.
    Thank you, Mr. Chairman, for inviting me here today. I 
appreciate this wonderful opportunity to share my opinions 
regarding present and future trends in medicine. I hope we can 
work together in the future.
    [The prepared statement of Dr. Beilin follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.076
    
    [GRAPHIC] [TIFF OMITTED] T1437.077
    
    [GRAPHIC] [TIFF OMITTED] T1437.078
    
    [GRAPHIC] [TIFF OMITTED] T1437.079
    
    [GRAPHIC] [TIFF OMITTED] T1437.080
    
    Mr. Burton. Dr. Beilin, before we go to Dr. Trimble, I hope 
when we get to the questions and the answers, that you will 
talk about, I think it was a proton device that can attack 
prostate cancer?
    Dr. Beilin. There is a type of hyperthermia that is a local 
hyperthermia device that is being reviewed right now.
    Mr. Burton. I want to ask you about that when we get to the 
questions and answers.
    Dr. Trimble, thank you, sir, for being so patient with us 
today.
    Dr. Trimble. Chairman Burton, members of the Committee on 
Government Reform, thank you for inviting me to represent the 
National Cancer Institute at this hearing. I am head of the 
surgery section at the Division of Cancer Treatment and 
Diagnosis at the NCI. Sitting behind me today is Dr. Jeffrey 
White, who is Director of the NCI's Office of Complementary and 
Alternative Medicine.
    By training, I am an obstetrician/gynecologist and 
gynecologic oncologist. My own patients include many women with 
cervical, uterine, ovarian, and breast cancer. My experiences 
in medicine as well as my own experiences caring for family 
members with cancer have made clear to me the importance of a 
holistic approach in cancer care.
    The NCI is committed to fostering the integration of 
complementary and alternative medicine into modern cancer care. 
In 1989, we funded key research conducted by Dr. David Spiegel 
and his colleagues at Stanford and the University of California 
which demonstrated that psychosocial support prolonged long 
survival in women with metastatic brain cancer. Working with 
the National Center for Complementary and Alternative Medicine, 
we have established a cancer advisory panel for the National 
Cancer Institute. This panel, which meets three times a year, 
includes members from the conventional and the CAM cancer 
research community. This panel will help advise the NCI's 
Office of Complementary and Alternative Medicine run by Dr. 
White, on how best to evaluate CAM therapies, how to develop 
accurate CAM information for the public. We are also working 
with the National Center for Complementary and Alternative 
Medicine and other NIH institutes to establish centers for CAM 
research across the United States.
    I would like to mention a few examples of the NCI's 
commitment to complementary and alternative approaches in 
cancer research. As Chairman Burton mentioned, for many years, 
the NCI has had a program evaluating natural products for anti-
cancer activity. One of these products, Taxol, which is found 
in the bark of the Pacific yew tree, has been shown to improve 
survival significantly for women with breast, ovarian cancer. 
We have extended our study of natural products from plants to 
marine products. We are currently evaluating another natural 
product, shark cartilage, among patients with breast and lung 
cancer. We have evaluated chrono-biology, the delivery of 
chemotherapy timed to a person's circadian rhythms, in women 
with uterine cancer. We funded an important study conducted at 
the Harvard Medical School and published last week in the New 
England Journal of Medicine, which showed that new use of 
alternative medicine was a marker for greater psycho-social 
distress and worse quality of life in women with newly 
diagnosed breast cancer. We have started an unconventional 
innovations program to spur the development of new technology 
in the diagnosis and treatment of cancer.
    We have heard some discussion of the problems of lymphedema 
today. We have recently opened two phase III trials evaluating 
the safety of sentinel lymph node biopsy in women with breast 
cancer. If this is proved safe and efficacious, then we will be 
able to eliminate the need for axillary lymph node dissection, 
and spare these women the risk of lymphedema.
    We are pleased to cosponsor the workshop described by Dr. 
Gordon, which opens tomorrow, on the integration of 
complementary and alternative therapy in cancer care. We look 
forward to continued interaction with the complementary and 
alternative medicine community in our efforts to improve 
prevention, screening, early diagnosis, treatment, and quality 
of life for women with cancer. I would be happy to answer any 
questions you might have.
    [The prepared statement of Dr. Trimble follows:]

    [GRAPHIC] [TIFF OMITTED] T1437.081
    
    [GRAPHIC] [TIFF OMITTED] T1437.082
    
    [GRAPHIC] [TIFF OMITTED] T1437.083
    
    [GRAPHIC] [TIFF OMITTED] T1437.084
    
    [GRAPHIC] [TIFF OMITTED] T1437.085
    
    [GRAPHIC] [TIFF OMITTED] T1437.086
    
    [GRAPHIC] [TIFF OMITTED] T1437.087
    
    [GRAPHIC] [TIFF OMITTED] T1437.088
    
    [GRAPHIC] [TIFF OMITTED] T1437.089
    
    [GRAPHIC] [TIFF OMITTED] T1437.090
    
    [GRAPHIC] [TIFF OMITTED] T1437.091
    
    [GRAPHIC] [TIFF OMITTED] T1437.092
    
    [GRAPHIC] [TIFF OMITTED] T1437.093
    
    Mr. Burton. Thank you, Dr. Trimble. Let me start with you. 
I am not sure I understood exactly what you just said about the 
lymph nodes. Is there a non-invasive way to check the lymph 
nodes? Is that what you are saying? So you don't have to remove 
them? So that you would not run the risk of lymphedema?
    Dr. Trimble. What has been shown in smaller studies is that 
by the use of either a dye or a radioactive material, one can 
find the one or two lymph nodes to which the cancer drains. 
Those lymph nodes are removed and then examined 
microscopically. If those lymph nodes are not involved by 
cancer, then that person does not need a full axillary lymph 
node dissection. So that's the theory that supports our trial, 
in which half the people would get a full lymph node 
dissection, and the other----
    Mr. Burton. Let me just ask you, in some cases, they don't 
take out all the lymph nodes. They just take out some of them. 
If they take out some of the lymph nodes, don't people run the 
risk of getting lymphedema, even though they haven't taken them 
all?
    Dr. Trimble. Well, the risk of--you are correct. There is a 
risk of lymphedema with only removing some. But in, let's say 
when a full axillary lymphedectomy is performed, then 20 to 30 
lymph nodes may be removed. Whereas in the new sentinel lymph 
node procedure, only one or two lymph nodes are removed. So the 
incidence of lymphedema following that sentinel node procedure 
is almost nothing.
    Mr. Burton. I see. OK. So instead of taking out 20 or 25 
and then finding 5 that had cancer cells in them, you would 
just take out those that you were able to pinpoint through the 
radiation?
    Dr. Trimble. Right. Pinpoint that those are the ones that 
are closest to the cancer. That is where the lymph fluid would 
drain from that tumor.
    Mr. Burton. I see. OK. All right.
    Dr. Beilin, you and I talked before the hearing. We were 
talking about other forms of cancer, such as prostate cancer. 
You told me that in Europe, they are using a new technology 
that would eliminate, in many cases, the need for, let's say, 
in prostate cancer, the prostate to be removed. You could just 
attack the cancer and part of the prostate. Is that correct?
    Dr. Beilin. Well, I hesitate to say eliminate the need for 
it, because every case is individual, and I think that we need 
a lot more research to be done. But currently there are a 
number of hyperthermia devices, one in particular is made in 
Spain, that is going through FDA review right now to be brought 
over. That involves a penetrating radio frequency hyperthermia 
that heats tissue beneath the surface of the skin that 
specifically could be directed toward tumor. There is fair 
science behind it. So there is a stack of literature that is 
available privately now, because it's being FDA reviewed by the 
company. That's just all I know about it.
    Mr. Burton. How long has that been used in Europe?
    Dr. Beilin. It's about 6-year-old technology that's now 
getting to be big in Europe.
    Mr. Burton. If it's 6 years in Europe, they must have 
records on this.
    Dr. Beilin. Yes, they do.
    Mr. Burton. Well, does the FDA here in the United States 
ever solicit those records, or do they just start all over from 
scratch?
    Dr. Beilin. That is a very interesting question. My 
impression with working with the FDA that I have done with the 
regulation thermography is that they look at most cases as new, 
and that they do not ask for studies that have been done in 
foreign countries such as Germany, Switzerland, countries that 
have the integrity of medicine that we do here. There are 
countries that are developed in the Western world just like 
ours, and I think that there should be some kind of movement to 
accept or at least be interested in the review of previous 
research that's been done abroad with such things as diagnostic 
early screening equipment.
    Mrs. Mack, who spoke earlier, she said she did an early 
detection by palpation, by just feeling. Well, the tumor, when 
it is 1 centimeter in diameter is already multi-celled with 
thousands of cancer cells. That is not really early detection. 
We are talking about recognizing patterns of disarray and the 
control of tissue 5 years before it would be visable by other 
methods. So I think we need a little bit of creative expansion 
in our paradigm.
    Mr. Burton. Let me ask you about our paradigm. So there are 
two examples of where the FDA is looking at new technologies 
that have been used in Europe from anywhere from 6 to 10 years.
    Dr. Beilin. From 6 to 15 years.
    Mr. Burton. From 6 to 15 years.
    Now you are here from the FDA, are you not? Do we have 
anybody here from the FDA today? You are from the FDA? Could 
you come up to the table, please? Are you prepared to answer 
any questions? You are only here to monitor the hearing?
    Well, I will give you a question. We have been told in the 
last 24 hours of two cases, one involving the instrument 
involving hyperthermia, and the other instrument we're talking 
about as far as early detection is concerned, even before it's 
readily apparent through mammography or through physical 
testing, that these have been used in Europe for 15 years in 
one case, and 6 years in another, and they have not yet been 
approved by the FDA, and they could be a real adjunct to our 
therapies and research here in the United States and early 
detection. I would like for you to have the head of the FDA 
give me a written reason on why they are dragging their feet on 
these two things. OK? I would like to have that as quickly as 
possible.
    Dr. Beilin. Mr. Chairman, if I may add that recently, the 
FDA has made some changes that are actually positive in that 
they have granted new areas of possible registration of 
instruments, diagnostics and treatment that has allowed for 
marketing approvals more readily than they used to. So at the 
same time, they may seem slow to acknowledge technologies that 
have existed with good data, they are also moving in the right 
direction, from what I can tell.
    Mr. Burton. Well, I'm glad to hear that, but we still have 
technologies that could really, really help, at least from 
every appearance that I have seen, that they are still dragging 
their feet on. I just hate to see any bureaucracy get in the 
way of progress that is going to help save lives.
    Ms. Silver, let me just ask you one question, and I'll 
yield to my colleague. In your statement, and I am trying to 
recall exactly how you put it, but you indicated that if 
there's new treatments or new things that people could take who 
have an illness that's very severe, they should be able to go 
ahead and take it even though there hasn't been approval yet if 
their life is at risk. Did I understand you correctly?
    Ms. Silver. I was referring to the complementary and 
alternative modalities that we practice in our center. In other 
words, those have not been proven, by and large. But they have 
not been disproven. That is to say that no one has suggested or 
proven that those modalities cause harm or are not efficacious. 
They have simply not been studied. So for that reason, we ask 
the question should we withhold those modalities, knowing as we 
do anecdotally that they can be effective with patients.
    Mr. Burton. And your answer is what?
    Ms. Silver. Our answer is we don't want to withhold those 
modalities.
    Mr. Burton. And you do go ahead and use them at the current 
time?
    Ms. Silver. We do use them.
    Mr. Burton. Are you having trouble with the FDA because you 
do that?
    Ms. Silver. No, no. These are non-invasive, apart from 
acupuncture, but the other modalities are non-invasive 
modalities. Many of them are mind body techniques that people 
can use routinely. So there is no oversight, as it were, 
because these are not drugs and they are not invasive 
procedures. But we also don't want to hold out false hope. We 
don't want to claim that any of these things is effective. We 
certainly don't claim that we cure cancer. We do say though 
that we can change the quality of life of a patient with some 
of these modalities, and our patients agree that their quality 
of life has been improved.
    Mr. Burton. Do you have some questions?
    Ms. Chenoweth. Mr. Chairman, I just want to thank you so 
much, for your continuing work in this area and your leadership 
nationally in this area. It is so very important to us in 
looking at American health and the role of Government in 
helping the American people stay healthy and to help them have 
access to the resources that help them stay ahead of the fight 
before the disease catches up with them.
    I experienced a very difficult passing of my own mother 
through radical, as a result of radical surgery because of 
cancer. So I have strong feelings about this, and am very 
grateful to you, Mr. Chairman, and to your witnesses. I think 
that we in this committee need to focus, as you are doing, on 
helping Government get out of the way. You know, first do no 
harm is not only a good motto for physicians, but also for 
legislators. I am afraid that some of our policies that we have 
implemented have caused harm to the individual in not being 
able to take control of their life. I am concerned that 
whenever we try to help, we end up interfering and making the 
lives of our constituents harder. That is simply unacceptable.
    Too often, access to public treatments is cutoff because 
the Federal Government is unsure of its safety. But to people 
with termi-
nal or potentially terminal illnesses, this seems to be a cruel 
joke, as it was in the case of my family. I think we need, as 
you have begun, to seriously question the role of Government in 
relating to certain institutions that may either help or 
prevent access to either new treatments or to education and 
information that will help us prevent disease. So thank you 
very, very much, Mr. Chairman for this hearing.
    I want to ask Dr. Trimble, could you explain to me what 
circadian rhythms are?
    Dr. Trimble. Well, circadian rhythms----
    Ms. Chenoweth. In relation to a patient receiving 
chemotherapy.
    Dr. Trimble. Right. Circadian rhythms refer to any of the 
natu- ral rhythms, whether that is day and night or the seasons 
and how they affect a person's physiology and the functions of 
their body.
    In this case, we have some preliminary research suggesting 
that you could decrease the toxicity of chemotherapy if you 
gave one of the medicines, doxorubicin, at 6 a.m., and the 
other one, Cisplatin, at 6 p.m. So in a small study, it seemed 
as though there was less damage to the nerves and less damage 
to the bone marrow if you staggered the chemotherapy that way.
    The NCI sponsored a large study in which half the women re- 
ceived their chemotherapy at any old time, whenever it was 
ready, prepared by the pharmacy. The other half got it at 6 
a.m., and 6 p.m. Then they looked to see whether there was any 
difference in the toxicity and damage to nerves or to bone 
marrow. Unfortunately, in the larger study, there was no 
difference between the two. But we did think it was an 
important question and we are continuing to look and see how we 
can decease the toxicity of our therapies.
    Ms. Chenoweth. You know, Dr. Trimble, American women and 
probably women in most of the Western countries, subject them- 
selves to some unpleasantries, mammograms, pap smears. We are 
careful about self-examination for breast cancer. With 14,500 
deaths from ovarian cancer though in 1999, I am deeply 
concerned that there is no early detection program for this 
type of cancer. Seventy-five percent of ovarian cancers are not 
detected until the later stages of disease. So I wanted to ask 
you, what is the Na- tional Cancer Institute doing to help 
women be able to detect ovar- ian cancer before it reaches the 
critical stages?
    Dr. Trimble. Well this is obviously an extremely important 
area that we have been working on for some time. We are making 
a number of efforts to try to improve screening and early 
detection of ovarian cancer. We are funding a very large trial, 
the PLCO trial, involving 73,000 women and 73,000 men. The 
women are being, half of them are being screened with 
ultrasound and a blood test, CON-25 blood test, for ovarian 
cancer. So that is a test of the best available technology that 
we have, versus standard medical care.
    We are also trying to develop some new tests. We have an- 
nounced an initiative called the Early Detection Research 
Network, which is an opportunity for us to encourage laboratory 
research and clinical research into coming up with new tests, 
new screening tests for a variety of cancers. I know for this 
particular initiative, there are seven laboratories in the 
United States which specialize in ovarian cancer that have put 
together an application just to focus on detecting earlier 
tests in ovarian cancer.
    In addition, the NCI is committed to funding what is called 
a SPORE or potentially more than one SPORE in ovarian cancer. 
We have a SPORE, which stands for Special Program of Research 
Excellence, in breast cancer and colon cancer, prostate cancer. 
It has been a very successful program. It is designed to bring 
research from the bench to the bedside. Nine centers have 
applied for that program. Those applications will be reviewed 
at the end of this month.
    So between these three initiatives, we think we are putting 
a lot of time and attention and money into trying to find a 
better screening. But you are absolutely right. We need a 
better screening.
    Ms. Chenoweth. Thank you, Dr. Trimble. I see that my time 
is up, but I had some questions for Dr. Beilin. So with the 
chairman's permission, I would like to submit them in writing.
    Mr. Burton. No, you can ask the questions. If you would 
just yield to me though, I have a question that I would like to 
add and then I will let you proceed. Will you yield to me?
    Ms. Chenoweth. We're on.
    Mr. Burton. Dr. Beilin, this device that they have used in 
Europe for 15 years that you demonstrated with your slides 
earlier, would it detect something like ovarian cancer?
    Dr. Beilin. In some cases. You know, there's no device that 
is going to be 100 percent or even maybe 80 percent, but there 
are cases that have been found when they haven't been found in 
any other way. We send them in. We refer them to radiology or 
to ultrasound, and do CA-125, the normal blood tests. So we are 
able to in a small percentage, reveal more than would have 
normally in other ways been revealed.
    Mr. Burton. I presume it is the same for prostate cancer or 
cervical cancer, or any other kind of cancer?
    Dr. Beilin. There are more cases found, but it's not a 
system that in any way could be used 100 percent of the time. 
That's just not the way to think about these things.
    Mr. Burton. But it would be a good adjunct?
    Dr. Beilin. It would be a great adjunct, and the cost is 
very little. The machines are costing less than $15,000, which 
is about a tenth of any of the other medical scanning or 
radiological devices.
    Mr. Burton. Dr. Trimble, I don't want to put you on the 
spot or the people over at NCI on the spot, but I can't 
understand why at FDA there's new technologies that have been 
used for 15 years with some modicum of success, a modicum of 
success in Europe, that have not been approved by FDA that 
could help you in detecting early cancer in places like my 
colleague was just talking about, cervical cancer and ovarian 
cancer. It seems to me that the bureaucracy isn't working 
together and there's no communication back and forth.
    I mean if this has been going on for 15 years, even if it 
would only help one-tenth of 1 percent of the women who have 
ovarian cancer, it is something that should be looked at. Does 
your agency ever talk to FDA or look at these things that are 
going on in Europe and elsewhere?
    Dr. Trimble. Well, we have very close relations with the 
FDA, particularly in the areas of chemotherapeutic drugs. We 
have worked closely with them to design really international 
systems for monitoring toxicity of drugs and response to 
chemotherapy, in part so that as products are developed in 
Europe, we might be able to use that data to submit it to the 
FDA for approval, so we would not have delays waiting for data 
to come in on patients in the United States.
    Mr. Burton. Have you ever heard of this machine before 
that's been used in Europe?
    Dr. Trimble. I work in the division of cancer treatment, so 
we have been focused on treatment. We have opened several new 
initiatives in imaging, one for unconventional imaging. We have 
also recently funded the American College of Radiology to set 
up an imaging network to evaluate new imaging in the treatment 
of cancers. I met yesterday with Dr. Beilin to discuss how this 
particular technology could be integrated into our research 
portfolio.
    Mr. Burton. As well as the other technology he was talking 
about, the heat device? You talked to him about that as well?
    Dr. Trimble. No. I did not talk to him about that 
yesterday, but we would be happy to talk with him.
    Mr. Burton. I wish you would, because it sounds like it's 
very promising, and it's been used for 6 years in Europe and 
it's not moving very fast through FDA.
    Can I make a request, and if you would write this down I 
would really appreciate it. I would like to request that the 
NCI provide a list to our committee of the cancer treatments, 
including drugs, devices, and other therapies that are 
available in Europe and Canada that are not available in the 
United States. The reason I am asking for that is because I 
have a feeling that you, and I'm sure you are very dedicated 
scientists as well as your colleague back there, but I have a 
feeling because there is so much on your plate right now, a lot 
of these things that are happening in other parts of the world 
that may have been going on for some time, may not have been 
really explored. As a result, some of those things, may be a 
good idea that might help us.
    I can remember after World War II, we were bringing all the 
rocket scientists over here from Germany, many of whom should 
have been strung up, to help us with our rocket program because 
they were so far advanced and so far ahead of us. I would just 
like to know if you could give us a list of all these drugs, 
devices, and other therapies that are available in Canada and 
Europe that are not available here, because if we get that 
list, then we can start seeing what might be helpful. Then we 
can talk to you about those.
    This is not in any way to denigrate the work you are doing. 
It is just to say that there might be some adjuncts out there 
that could be helpful to you.
    Dr. Beilin. Mr. Chairman, if I might ask the question of 
Dr. Trimble.
    Mr. Burton. Sure.
    Dr. Beilin. What is the status of mistletoe, because 
mistletoe therapy is being used in many oncology clinics in 
Europe? From what I understand, is that our drug companies here 
are trying to recreate a patentable mistletoe to be used as 
chemotherapy, but without the original mistletoe therapy with 
the research results that they have gotten being acceptable by 
FDA.
    Mr. Burton. Before you answer that question, Dr. Trimble, 
this is one of the things that really bothers a number of 
people in Congress, because many people in Congress, including 
myself, suspect that some of the pharmaceutical companies have 
undue influence at the Food and Drug Administration and some of 
our National Health Institutions. I hope that's not the case, 
but we have that concern. When we hear things like what he just 
mentioned, that there is a therapy or a substance that is being 
used like mistletoe in Europe to help in areas like 
chemotherapy, and instead of using that or exploring what 
Europeans have done, which is very cost-effective and 
inexpensive, we have got the pharmaceutical companies trying to 
come up with something that is patentable from some synthetic 
property, some synthetic thing. The FDA then tests it, runs it 
through, they get a 6, 7, 8, or 9 year patent--I don't know how 
long the patents run on those things--so that they can make 
money. Who suffers? The patients do when there might be 
something much less expensive that's on the market over in 
Europe. Those are things that really bother people in this 
country.
    Anyway, go ahead. I'll let you answer.
    Dr. Trimble. Well first, I'll take a pass on the mistletoe 
because I do not know anything about it. We will get back to 
you. But that is not an area that I have studied.
    Mr. Burton. OK. Well that would fall under the category of 
all the questions I just asked.
    Dr. Trimble. Yes. No, I can comment or I would like to 
comment on our interaction with our colleagues in Europe and 
elsewhere. The National Cancer Institute has made a sincere 
effort to exchange information with colleagues from around the 
world. We sponsor a meeting in conjunction with the European 
Organization for Research and Treatment of Cancer every 2 
years, to discuss new drug development. We have regular 
meetings with colleagues in Japan. We also have been 
strengthening the ties between our clinical researchers in this 
country, those in Canada, and those in Europe.
    Approximately 3 weeks ago, at the national meeting of the 
American Society for Clinical Oncology in Atlanta, I 
participated in a meeting to discuss trials in ovarian, 
cervical, and uterine cancers with representatives from 
Australia, Scotland, England, Norway, Sweden, Germany, Austria, 
and Italy. This is something that is happening in many other 
cancer sites as well. So we are definitely trying to find out 
what is going on elsewhere around the world, and make sure that 
people in the United States have access to the best ideas, 
wherever they are from.
    Mr. Burton. Dr. White, I understand that you may know 
something about the question that was asked about mistletoe?
    Dr. White. Yes. I can tell you a little bit about what we 
have done in this area. As you probably know, the National 
Center for Complementary and Alternative Medicine has 10 or I 
guess now 13 centers that it funds for various different 
diseases. It has a cancer center at the University of Texas, 
Houston, which we, NCI, co-funds with the NCCAM. That center is 
actually doing a phase I study of mistletoe in advanced 
esophageal cancer. They also have done a variety of pre-
clinical studies with other herbal approaches that are used 
outside the United States predominantly.
    There are a variety of different preparations of mistletoe 
that are used in Europe and in Australia and various places. 
This is using one of those five or six that are available.
    Mr. Burton. How long has it been used in Europe, do you 
know?
    Dr. White. I don't know when it first started. The last 
randomized clinical trial that I am aware of that was done in 
Europe was published in 1988.
    Mr. Burton. 1988?
    Dr. White. Yes.
    Mr. Burton. That was 11 years ago. And we haven't gone 
through the studies yet on it here in the United States?
    Dr. White. Well, there has not been a study done in the 
United States, that I am aware of. But the review of that 
material, as I said, has been done at the University of Texas.
    Mr. Burton. You know, I have had cancer in my family. I 
have had people appear at this table here who have little 
children who are dying, and there's alternative therapies 
available to them, and we run into stonewalls with some of the 
agencies, FDA or others, and even doctors who have used some of 
these therapies they have tried to put out of business. When we 
hear of therapies, technologies, or simple products like 
mistletoe, that's being used in Europe with some effectiveness, 
and people are dying here, and I have to look at these kids and 
their parents, or some men that had Hodgkins disease that was 
going to be terminally ill, and he had to go outside the bounds 
of what's considered law and order to be treated, it really 
boggles your mind and bothers you. I just can't understand why 
we are having this kind of a problem.
    If there is a technology or some substance that can be used 
in Europe and is being used for 10, and you said 11 years ago 
they were testing this and using it, why is it that the United 
States, the most advanced country in the history of 
civilization, is 11 years behind, 15 years behind in this other 
area, 6 years behind in another area, and when I ask these 
questions, they say of the FDA, this young lady that's sitting 
back there, she says, ``Well we'll check on it and get back to 
you.'' But there really isn't any answer. I just don't 
understand it.
    It seems to me that Dr. Trimble and you, Dr. White, and 
others, ought to be constantly looking at these alternative 
therapies along with the Food and Drug Administration, to try 
to make sure that we are giving the American consumer, the 
American patient, the very best opportunity to live a healthy 
life and to survive if they are in big trouble. I know you are 
trying to do that. But it seems to me that some place the golf 
club is missing the ball. That is why I asked that question of 
Dr. Trimble, that we get a list of all the cancer treatments 
they are using in Canada and Europe, and the devices and the 
other therapies, so that we can at least look at them and see 
what the heck is going on over there that we are not doing.
    It is really frustrating to me when I hear this kind of 
stuff. Go ahead.
    Dr. White. Yes. I would just like to put a little bit of 
perspective on the mistletoe issue. I understand the broader 
scope of what it is that you are saying, but specifically on 
mistletoe, the largest clinical trial that I am aware of was a 
randomized trial with three arms on it, one arm that patients 
did not receive any supplemental care after their surgery--this 
is for breast cancer. Another arm received standard 
chemotherapy, plus or minus radiation therapy for their breast 
cancer. This is all adjuvant therapy. The third arm received 
mistletoe.
    The mistletoe arm did better than no therapy, but the 
chemotherapy arm did better than no therapy. The mistletoe arm 
did no better than chemotherapy. So I think it's not--so we're 
talking about first of all, adjuvant therapy. So this is not in 
advanced forms of cancer. Second, it is not something that 
represented in that study a step above what was already 
available to the patients.
    Mr. Burton. Dr. Beilin.
    Dr. Beilin. If I may comment that there are statistics 
being gathered an immunologist and oncologist colleague in 
Austria for the Germanic countries. They have discovered that 
statistics seem to be coming out that using chemo plus 
complementary therapy such as mistletoe together resulting, 
like in breast cancer, the number is 25 percent less recurrence 
rates when you use both together. So I think that those kind of 
statistics need to kind of leap over here so that we can begin 
to take the best and to integrate them and add them together to 
have an additive effect. That same statistic came out for 
prostate and melanoma.
    Dr. White. Is that published information?
    Dr. Beilin. I believe so. I can lead you to it.
    Dr. White. I would be happy to review that.
    Mr. Burton. Well see, this is the kind of communication 
that every American would like to see all the time, not just at 
the table here at a hearing.
    So let me just ask two more questions, then I'll yield to 
my colleague. Then we'll wrap this up, because we have all been 
here a long, long time. The NCI gets $2.7 billion, $2.7 billion 
for cancer research. You are spending less than 1 percent of 
that on alternative therapies. We are hearing things here today 
that indicate that there are some alternative therapies with 
promise. I am sure you are going to give me a list of other 
things that have promise that we're going to get from Europe. 
Why is it that we only spend $20 million out of $2.7 billion on 
alternative therapies when half of the Americans who have 
problems are using and trying to find alternative therapies. It 
just doesn't make any sense to me. Can you give me an answer to 
that, Dr. Trimble? Why are we only spending $20 million?
    Dr. Trimble. Well, as I know that Mr. Chairman, that you 
have had some discussions with my director, Dr. Klausner, on 
this issue. We realize that we need to provide the American 
public with accurate information on complementary and 
alternative medicine, and we need to provide them with accurate 
appraisal of these techniques in terms of whether they work so 
that people in the United States can decide for themselves 
whether they wish to avail themselves of various complementary 
and alternative medicine techniques.
    Mr. Burton. But I think you are making my point. We need to 
spend more money than just less than 1 percent on that. 
Wouldn't you agree with that?
    Dr. Trimble. Well, I agree that we need to do more 
research. To that end, we have agreed to co-fund with the other 
institutes, centers for alternative medicine research across 
the United States. We are actively soliciting new ideas that we 
can test at these centers and through with their existing 
cancer centers. So we hope that we can make more information 
available and have more and better treatment which combine 
standard treatment, complementary medicine and alternative 
medicine for the people of the United States.
    Mr. Burton. Let me yield to my colleague. She has to leave.
    Ms. Chenoweth. Dr. Trimble, could you commit to us how much 
the National Cancer Institute will dedicate to alternative 
medicine studies and research?
    Dr. Trimble. No. That's above my pay level to make that 
kind of a commitment. I will commit that we are actively 
recruiting studies. We have committed to setting up centers to 
study complementary and alternative medicine. We will continue 
to forge a joint approach with our colleagues in other medical 
disciplines in this area.
    Ms. Chenoweth. Mr. Chairman, I wonder as a member of your 
committee, if I might ask that you would ask whoever is in the 
pay grade----
    Mr. Burton. Dr. Klausner.
    Ms. Chenoweth. Dr. Klausner, how much? I would like to know 
as a Congressman.
    Mr. Burton. I think what we ought to do is as the Congress 
take a look at the amount of money we are appropriating for 
NCI, and talk to the people on the Appropriations Committee. 
Maybe since NCI of their own volition isn't going to authorize 
more money for alternative therapies, maybe we should just 
specify in the appropriations bill how much you have to spend 
for that. If we did that, maybe that would break the log jam. 
But I will try to talk to Dr. Klausner. I want you to make a 
note that we do that.
    I don't have any other questions. Do you have any other 
questions?
    Ms. Chenoweth. Mr. Chairman, I just wanted to share on the 
record with you an observation that I have made. You know, we 
broke all the barriers down when we passed NAFTA and GATT. Now 
we have the World Trade Organization. We are importing 22 
percent of our beef that comes from foreign countries, and we 
don't know where. They have certainly different standards than 
we have. Yet we are consuming that beef not knowing that it's 
coming from foreign countries. Forty percent of our lamb 
sometimes comes from 7,000 miles away and we don't seem to ask 
a question about that. You know, we have toys that come from 
China, and we have hotwheels that come from Malaysia, and we 
have dog bones that come from Argentina. Nobody seems to worry 
about that in this whole global economy.
    But what about getting information from Europe that we can 
use on a par the studies and benefit from them? It just seems 
absolutely incredible to me that we always have to reinvent the 
wheel when it comes to medicine. Yet in every other arena in 
this global economy, but medicine, and freedom from medicine, 
and freedom from the institutions of the individuals sometimes 
when we make that choice, is what is sorely lacking.
    I am afraid this Congress unfortunately is supporting the 
institutions and the patients have become a byproduct or just a 
necessary function for the institutions, instead of the 
institutions being a necessary function to better healthcare.
    So, Mr. Chairman, I would love to work with you on perhaps 
requiring something in NAFTA or GATT that would mandate that 
these studies be accepted by FDA on a par.
    Mr. Burton. We'll take a look at it. I will get together 
with you and we will have Beth look into it, and see if we 
can't maybe do some of that.
    Ms. Chenoweth. Thank you.
    Mr. Burton. I think that at the very least, those 
technologies should not languish for 6, 7, 8, 10, 15 years 
before they are utilized here in the United States.
    I was just informed that shark cartilage, for instance, I 
think Dr. Trimble said they are testing that, 7 years ago they 
started talking about it and we are just now doing it. So it 
seems like there is a lot of foot dragging.
    Well, I don't have any other questions for you. Thank you, 
Mr. White. You weren't scheduled to speak, but we do appreciate 
your coming before us. Dr. Trimble, Dr. Beilin, thank you very 
much. Ms. Silver, thank you very much. I want to thank you once 
again for your patience.
    We stand adjourned.
    [Whereupon, at 3:45 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1437.094

[GRAPHIC] [TIFF OMITTED] T1437.095

[GRAPHIC] [TIFF OMITTED] T1437.096

[GRAPHIC] [TIFF OMITTED] T1437.097

[GRAPHIC] [TIFF OMITTED] T1437.098

[GRAPHIC] [TIFF OMITTED] T1437.099

[GRAPHIC] [TIFF OMITTED] T1437.100

[GRAPHIC] [TIFF OMITTED] T1437.101

[GRAPHIC] [TIFF OMITTED] T1437.102

[GRAPHIC] [TIFF OMITTED] T1437.103

[GRAPHIC] [TIFF OMITTED] T1437.104

[GRAPHIC] [TIFF OMITTED] T1437.105

[GRAPHIC] [TIFF OMITTED] T1437.106

[GRAPHIC] [TIFF OMITTED] T1437.107

[GRAPHIC] [TIFF OMITTED] T1437.108

[GRAPHIC] [TIFF OMITTED] T1437.109

[GRAPHIC] [TIFF OMITTED] T1437.110

[GRAPHIC] [TIFF OMITTED] T1437.111

[GRAPHIC] [TIFF OMITTED] T1437.112

[GRAPHIC] [TIFF OMITTED] T1437.113


</pre></body></html>
